<html>
<title> - WEATHER MODIFICATION AND S. 517, THE WEATHER MODIFICATION RESEARCH AND TECHNOLOGY TRANSFER AUTHORIZATION ACT OF 2005</title>
<body><pre>[Senate Hearing 109-446]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 109-446

 
WEATHER MODIFICATION AND S. 517, THE WEATHER MODIFICATION RESEARCH AND 
             TECHNOLOGY TRANSFER AUTHORIZATION ACT OF 2005

=======================================================================

                                HEARING

                               before the

SUBCOMMITTEES ON: SCIENCE AND SPACE; DISASTER PREVENTION AND PREDICTION

                                 OF THE

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                               __________

                           NOVEMBER 10, 2005

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation



                    U.S. GOVERNMENT PRINTING OFFICE
28-211                      WASHINGTON : 2006
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                     TED STEVENS, Alaska, Chairman
JOHN McCAIN, Arizona                 DANIEL K. INOUYE, Hawaii, Co-
CONRAD BURNS, Montana                    Chairman
TRENT LOTT, Mississippi              JOHN D. ROCKEFELLER IV, West 
KAY BAILEY HUTCHISON, Texas              Virginia
OLYMPIA J. SNOWE, Maine              JOHN F. KERRY, Massachusetts
GORDON H. SMITH, Oregon              BYRON L. DORGAN, North Dakota
JOHN ENSIGN, Nevada                  BARBARA BOXER, California
GEORGE ALLEN, Virginia               BILL NELSON, Florida
JOHN E. SUNUNU, New Hampshire        MARIA CANTWELL, Washington
JIM DeMINT, South Carolina           FRANK R. LAUTENBERG, New Jersey
DAVID VITTER, Louisiana              E. BENJAMIN NELSON, Nebraska
                                     MARK PRYOR, Arkansas
             Lisa J. Sutherland, Republican Staff Director
        Christine Drager Kurth, Republican Deputy Staff Director
                David Russell, Republican Chief Counsel
   Margaret L. Cummisky, Democratic Staff Director and Chief Counsel
   Samuel E. Whitehorn, Democratic Deputy Staff Director and General 
                                Counsel
             Lila Harper Helms, Democratic Policy Director
                                 ------                                

                   SUBCOMMITTEE ON SCIENCE AND SPACE

                 KAY BAILEY HUTCHISON, Texas, Chairman
TED STEVENS, Alaska                  BILL NELSON, Florida, Ranking
CONRAD BURNS, Montana                JOHN D. ROCKEFELLER IV, West 
TRENT LOTT, Mississippi                  Virginia
JOHN ENSIGN, Nevada                  BYRON L. DORGAN, North Dakota
GEORGE ALLEN, Virginia               E. BENJAMIN NELSON, Nebraska
JOHN E. SUNUNU, New Hampshire        MARK PRYOR, Arkansas

           SUBCOMMITTEE ON DISASTER PREVENTION AND PREDICTION

                  JIM DeMINT, South Carolina, Chairman
TED STEVENS, Alaska                  E. BENJAMIN NELSON, Nebraska, 
GORDON H. SMITH, Oregon                  Ranking
DAVID VITTER, Louisiana              MARIA CANTWELL, Washington
                                     BILL NELSON, Florida


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on November 10, 2005................................     1
Statement of Senator DeMint......................................     1
Statement of Senator Hutchison...................................    18

                               Witnesses

DeFelice, Dr. Thomas P., Past President, Weather Modification 
  Association....................................................     7
    Prepared statement...........................................     8
Garstang, Michael, Ph.D., Professor, University of Virginia; 
  Chair, Committee on Critical Issues in Weather Modification 
  Research, National Research Council of the National Academies..    10
    Prepared statement...........................................    12
Golden, Dr. Joseph H., Senior Research Scientist, Cooperative 
  Institute for Research in the Environmental Sciences (CIRES), 
  University of Colorado.........................................     3
    Prepared statement...........................................     5

                                Appendix

Marburger, III, John H., Director, Executive Office of the 
  President, Office of Science and Technology Policy, letter, 
  dated December 13, 2005 to Hon. Kay Bailey Hutchison...........    29
Nelson, Hon. E. Benjamin, U.S. Senator from Nebraska, prepared 
  statement......................................................    27
Response to written questions submitted to Dr. Thomas P. DeFelice 
  by:
    Hon. Daniel K. Inouye........................................    33
    Hon. E. Benjamin Nelson......................................    33
    Hon. Bill Nelson.............................................    34
Response to written questions submitted to Michael Garstang, 
  Ph.D., by:
    Hon. Daniel K. Inouye........................................    35
    Hon. E. Benjamin Nelson......................................    35
    Hon. Bill Nelson.............................................    35
Response to written questions submitted to Dr. Joseph H. Golden 
  by:
    Hon. Daniel K. Inouye........................................    30
    Hon. E. Benjamin Nelson......................................    31
    Hon. Bill Nelson.............................................    32
Wilhite, Dr. Donald, Director, National Drought Mitigation 
  Center, University of Nebraska-Lincoln, prepared statement.....    27


WEATHER MODIFICATION AND S. 517, THE WEATHER MODIFICATION RESEARCH AND 
             TECHNOLOGY TRANSFER AUTHORIZATION ACT OF 2005

                              ----------                              


                      THURSDAY, NOVEMBER 10, 2005

                               U.S. Senate,
     Subcommittees on: Science and Space; Disaster 
                         Prevention and Prediction,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Subcommittees met, pursuant to notice, at 2:30 p.m. in 
room SD-562, Dirksen Senate Office Building, Hon. Jim DeMint, 
presiding.

             OPENING STATEMENT OF HON. JIM DeMINT, 
                U.S. SENATOR FROM SOUTH CAROLINA

    Senator DeMint. Good afternoon. Sorry for the confusion. I 
appreciate all of you folks joining us this afternoon and look 
forward to hearing from you. My other chairman of this meeting, 
Senator Hutchison, will be back in just a moment. And I know 
she's been a part of inviting this group here today.
    I am very interested in the testimony. We saw, numerous 
times this summer, and just this past weekend, in Indiana and 
Kentucky, that weather has a profound impact on the lives of 
Americans. And this afternoon, the Subcommittees will be 
discussing weather modification, and, specifically, legislation 
introduced by my colleague, Senator Hutchison, Senate bill 517, 
the Weather Modification Research and Technology Transfer 
Authorization Act.
    As I understand, the genesis of this legislation was to 
help provide relief to drought-stricken farmers in West Texas 
and across the Nation. As we are all aware, weather 
modification technologies have been pursued for a number of 
years. For decades, the Federal Government has dedicated 
significant resources to weather modification research, and 
State and local governments continue to spend millions on both 
operational weather modification technologies and weather 
modification research.
    I was interested to learn that recently the National 
Research Council of the National Academies, the Nation's 
leading scientific body, raised some concerns about efficacy of 
weather modification research. Because of the importance of 
this issue, I'm looking forward to Dr. Garstang's comments this 
afternoon and his assessment of the state of the science 
surrounding weather modification research. It's entirely 
possible that, at some point in the future, weather 
modification technologies might be viable. I continue to be 
impressed by the progress of all kinds of American innovations. 
At some point, this Committee may get to the point where it is 
considering the complex legal, social, and political issues 
surrounding whether or not the Nation should support a regimen 
of weather modification. But I am aware there are serious 
concerns about pursuing a regimen of intentional weather 
modification and want to give those concerns careful 
consideration.
    I'm also concerned that, as a Nation, we do not have 
sufficient understanding of how our atmosphere behaves. It 
seems that this may be a concern shared by the Academy, noting 
some of the findings in their recent report. I think this 
Committee should give thoughtful consideration to their 
principal conclusion, which stated that, ``Atmospheric science 
is now in a position to mount a concerted and sustained effort 
to delineate the scope and expectations of future weather 
modification research. Such an effort must be directed at 
answering fundamental scientific questions that will yield 
results that will go well beyond application to intentional 
modification. The emphasis must be on understanding processes, 
and not on modification.'' I think--in other words, I believe 
what I'm hearing them saying is that we need to understand how 
weather works now before we go too far in trying to modify it.
    I would also encourage the scientific community, and 
particularly the atmospheric-sciences community, through the 
National Academies or our scientific societies, to decide what 
are the highest priorities and most promising areas of research 
for fundamental atmospheric research. The NRC report on weather 
modification research outlines some areas that may inform 
weather modification, such as precipitation physics and cloud 
modeling. Could these areas or other areas of the research be 
considered as part of a comprehensive program of atmospheric 
research? I'll let you answer the question today.
    Priority-setting is going to be important. In recent years, 
Republicans in Washington have endeavored to constrain Federal 
spending. We've not been as successful as I would like, but I'm 
committed to working with my colleagues to ensure that Federal 
discretionary spending not only does not grow, but that it 
shrinks.
    I say all this to encourage the atmospheric-science 
community to think critically about where you want to put the 
next dollar in atmospheric research. There are some very 
promising places to put this funding that could have a dramatic 
impact on the lives of all Americans. I would encourage you to 
consider the various research initiatives proposed by the 
Academy in light of the other important initiatives that need 
to be undertaken to improve prediction of tornado formation, to 
understand the rapid intensification of hurricanes, and the 
other challenges facing us.
    How do all of these competing priorities interact? Maybe 
there is some overlap that will address these important issues 
and inform weather modification. I hope the scientific 
community can help me and this Committee with this priority-
setting.
    This Committee is committed to advancing atmospheric 
sciences, because we understand what an important role weather 
plays in the lives of all Americans. So, I'm looking forward to 
hearing from you. This issue leaves me with a lot of questions, 
and I'm hoping my witnesses can answer some of those questions 
today.
    Appearing this afternoon is Dr. Joe Golden, Senior Research 
Scientist at Colorado's Cooperative Institute for Research in 
the Environmental Sciences. Dr. Golden previously directed 
NOAA's weather modification research programs. He will discuss 
Senate bill 517 and its potential benefits for weather 
modification.
    Also with us is Dr. Tom DeFelice, past President of the 
National Weather Modification Association. He will be providing 
perspectives on the importance of weather modification and 
weather modification research.
    Finally, appearing before the Subcommittees this afternoon, 
is Dr. Michael Garstang. Dr. Garstang is a Distinguished 
Emeritus Research Professor in the Department of Environmental 
Sciences, at the University of Virginia. He's a fellow at the 
American Meteorological Society, the AMS--and has served on 
numerous AMS committees. He was also the Chair of the 2003 
National Research Council Committee on Critical Issues in 
Weather Modification Research.
    OK, having introduced all of our panelists, Dr. Golden, 
we'll start with you, and if Senator Hutchison comes in, we may 
need to take a break and let her make a statement if she can't 
stay the whole time.
    So, Dr. Golden, please--I think we're going to try to keep 
this to five minutes, and then some questions.

 STATEMENT OF DR. JOSEPH H. GOLDEN, SENIOR RESEARCH SCIENTIST, 
    COOPERATIVE INSTITUTE FOR RESEARCH IN THE ENVIRONMENTAL 
            SCIENCES (CIRES), UNIVERSITY OF COLORADO

    Dr. Golden. Thank you, Senator DeMint.
    I am honored to appear before you today in regards to 
Senate bill 517, the Weather Modification Research and 
Technology Transfer Authorization Act of 2005. My name is Dr. 
Joseph Golden, retired from NOAA on September 2, 2005, after 
over 41 years of Federal service in NOAA, both in severe-
weather research and NWS operations. I now work part-time as a 
Senior Research Scientist in the University of Colorado's 
Cooperative Institute, in Boulder, Colorado.
    My background in weather modification research relates to 
the fact that I was the last NOAA manager of the Atmospheric 
Modification Program, or AMP, in NOAA research until its 
termination by the Congress in 1995. None of the NOAA AMP funds 
were used to conduct any operational cloud-seeding, and I feel 
that, at this time, funding under Senate bill 517 should also 
not be used to conduct any operational cloud-seeding.
    The Texas participation in my AMP program was the first to 
utilize the NWS NEXRAD Doppler radar data to estimate the 
rainfall increases from seeding convective clouds in Texas. 
However, one of my greatest career frustrations has been 
witnessing the adoption of new research results and 
technologies, that we developed under AMP, by other countries, 
while our Federal research and technology transfer in my 
country has largely stagnated.
    One example, a chemical tracer technique that we developed 
in my Nevada AMP program to quantify the amount of snow 
increase due to seeding over mountains is now being used by a 
new cloud-seeding program in Australia.
    In China alone, their government is now funding a greatly 
expanded weather modification research and operations program 
at $100 million per year, as well as training over 1,500 new 
weather modification scientists.
    Federal funding for weather modification research in the 
United States reached its pinnacle in the 1970s and early 
1980s, and has steadily declined ever since. During its heyday, 
weather modification research in the U.S. was at the cutting 
edge of worldwide efforts. For example, NOAA conducted large-
scale seeding experiments, in South Florida, called FACE, and 
we collaborated with the Navy and university scientists in 
Project STORMFURY to weaken hurricanes. I participated in 
STORMFURY while I was a Ph.D. candidate, and found it to be one 
of the most exhilarating experiences of my career.
    The need for a renewed national commitment and funding for 
weather modification research has become more urgent, in my 
view. In recent years, we have seen severe drought in my home 
State of Colorado and the Pacific Northwest. New research 
results show unmistakable impacts of air pollution in reducing 
seasonal precipitation over mountainous areas of the Western 
U.S. during the past several decades. Pollution is 
systematically robbing the western mountains of winter 
snowpack, and, if the process continues, will lead to major 
losses of runoff water for hydroelectric power and agricultural 
crop productivity. However, research results in Israel--has 
demonstrated that their long-term cloud-seeding programs have 
offset similar pollution-induced rainfall losses in their 
country.
    Another weather modification research issue, and one that 
elicits scientific controversy, is severe-storms modification. 
I don't have time to go into this in any depth, but one of the 
longest-running hail-suppression programs in the world is in 
North Dakota. And, during my tenure, AMP sponsored their 
research. Positive results on the impact of cloud-seeding to 
reduce hail damage to crops using insurance companies' records 
of crop-loss ratios were so impressive in North Dakota, that 
the Canadian insurance industry has supported a new multi-year 
effort in the Province of Alberta, Canada, to protect its 
largest cities from hail. The Alberta hail-suppression program 
uses many of the techniques that we used in the AMP North 
Dakota program.
    Finally, after the horrendous devastation and loss of life 
from Hurricanes Katrina and Rita, I have been asked several 
times about the possibility of hurricane modification. And, 
while we don't have time to fully address the issue today, I 
firmly believe that we are in a much better position, both with 
the science and the undergirding technology, than we were when 
Project STORMFURY was terminated by our government in 1982. We 
now understand that both tornados and hurricanes exhibit a life 
cycle, and both exhibit natural instabilities during their 
lifetimes.
    Even after the demise of the AMP program in 1995, 
operational weather modification programs have continued to 
expand and flourish in the U.S. This is reflected in the annual 
reports of all such projects to NOAA, as required by law.
    I like the idea of establishing a Weather Modification 
Advisory Board with broad representation, which is needed to 
set the national agenda and priorities, as Senator DeMint has 
already touched upon, for these and other urgent water-
management issues facing the country. I have many close 
scientific colleagues in NOAA weather research who would 
welcome the opportunity to contribute to a reinvigorated 
national program of weather modification research and 
technology transfer.
    In closing, I want to assure you that the U.S. has the 
technology and the best and brightest scientists, who would 
welcome the opportunity to reinvigorate the weather 
modification field. These are very challenging issues, and the 
worsening water crises in the West and elsewhere demand our 
urgent attention.
    Thank you.
    [The prepared statement of Dr. Golden follows:]

Prepared Statement of Dr. Joseph H. Golden, Senior Research Scientist, 
   Cooperative Institute for Research in the Environmental Sciences 
                    (CIRES), University of Colorado

    I am honored to appear before you today in regards to S. 517, the 
Weather Modification Research and Technology Transfer Authorization Act 
of 2005. My name is Dr. Joseph H. Golden, retired from NOAA on 
September 2, 2005 after 41.5 years of Federal service in NOAA, both in 
severe weather research and NWS operations. I now work part-time as a 
Senior Research Scientist in the University of Colorado's Cooperative 
Institute for Research in the Environmental Sciences (CIRES) in 
Boulder, Colorado. My background in weather modification research 
relates to the fact that I was the last NOAA manager of the Atmospheric 
Modification Program (AMP) in NOAA Research, until its termination by 
the Congress in 1995. I was never asked by anyone to defend the AMP 
Program, based on its merits and accomplishments. The AMP program was 
written into NOAA's budget by the Congress for many years, beginning in 
the late 1970s. I view the AMP program and its research productivity as 
a highlight of my NOAA career, especially due to the cooperative 
efforts among the six States in the program (Illinois, North Dakota, 
Texas, Utah, Nevada and Arizona), the universities, private-sector 
operators, and NOAA research. None of the NOAA AMP funds were used to 
conduct any operational cloud seeding, and I feel that, at this time, 
funding under S. 517 should also not be used for operational cloud 
seeding efforts. I am pleased to see my colleague, George Bomar here 
from Texas: he was one of the State program managers in AMP, and his 
State was the first to utilize NWS NEXRAD Doppler radar data to 
estimate the rainfall increases from seeding convective clouds. One of 
my greatest career frustrations has been witnessing the adoption of new 
research results and technologies we developed under AMP by other 
countries, while Federal research and technology transfer in my own 
country has largely stagnated. For example, a chemical tracer technique 
developed by the Nevada-AMP program to quantify the amount of snow 
increase due to seeding over mountains is now being used by a new cloud 
seeding program in Australia. In China alone, their government is 
funding a greatly-expanded weather modification research and operations 
program at $100 million per year, as well as training over 1,500 new 
weather modification scientists.
    In the limited time I speak before you today, I want to address two 
types of natural disasters, and the potential for planned weather 
modification to alleviate them: slow-onset disasters over many years, 
such as the continuing drought in the West, and the quick-onset 
disasters such as the record-breaking Atlantic hurricane season this 
year and the massive Oklahoma City tornado outbreak of May 1999.
    Federal funding for weather modification research in the U.S. 
reached its pinnacle in the 1970s and early 1980s, and has steadily 
declined ever since. During its heyday, weather modification research 
in the U.S. was at the cutting edge of worldwide efforts. For example, 
NOAA conducted large-scale seeding experiments in South Florida (called 
FACE) and collaborated with the Navy and university scientists in 
Project STORMFURY, to weaken hurricanes. I participated in STORMFURY 
while a Ph.D candidate, and found it to be one of most exhilarating 
experiences of my career. The National Center for Atmospheric Research 
(NCAR) also organized the National Hail Research Experiment, which 
attempted to test the validity of the Russian approach to artificially 
reduce hail by cloud seeding. Finally, the Bureau of Reclamation 
carried out the High Plains experiment, to seed convective clouds for 
rainfall increases over the Central U.S. While each of these programs, 
in my opinion, produced outstanding scientific results and new 
operational insights, they produced results that were inconclusive 
insofar as statistical evaluation is concerned. Nevertheless, I feel 
that our community was a good steward and used limited funding very 
wisely. I am also convinced that the atmospheric sciences have come a 
long way during the intervening years. The scientific foundation and 
underlying physics in purposeful weather modification, i.e., cloud 
seeding, is sound and well-established. We now have both the science 
and the technology to launch a new research attack on some of these 
other vexing problems.
    The need for a renewed national commitment and funding for weather 
modification research has become more urgent. In recent years, we have 
seen severe drought in my home State of Colorado and the Pacific 
Northwest. New research results show unmistakable impacts of air 
pollution in reducing seasonal precipitation over mountainous areas of 
the Western U.S. during the past several decades. Pollution is 
systematically robbing the Western mountains of winter snowpack, and if 
the process continues, will lead to major losses of runoff water for 
hydroelectric power and agricultural crop productivity. However, 
research in Israel has demonstrated that their long-term cloud seeding 
programs have offset similar pollution-induced rainfall losses in their 
country. The new research has also developed new analysis techniques 
with NOAA satellite data to objectively identify and separate pollution 
episodes from affected neighboring clouds. The pollution effects on 
natural precipitation in our country and elsewhere is certainly a 
critical research issue for this bill. Another issue needing more 
research attention is the question of extra-area effects: if we seed 
cloud systems in one area, and successfully produce increases of 
precipitation there, are we ``robbing Peter to pay Paul'' in downwind 
locations? Results supported by AMP suggested the answer is no, and 
that there is either no effect downwind, or a slight increase in 
precipitation.
    Another weather modification research issue, and one that always 
elicits scientific controversy, is severe storms modification. This 
issue was not addressed much in the NAS/NRC weather modification report 
chaired by my distinguished colleague, Michael Garstang. These are the 
quick-onset disasters of which I spoke earlier, and include hailstorms, 
tornadoes and hurricanes like Katrina and Rita this year. I should 
emphasize that AMP supported some outstanding hail modification 
research with the North Dakota Cloud Modification Program. This 
operational program is one of the longest-running hail suppression 
programs in the world. Positive results on the impact of cloud-seeding 
to reduce hail damage to crops, using insurance companies' records of 
crop-loss ratios, were so impressive, that the Canadian insurance 
industry has supported a new multi-year effort in the province of 
Alberta, Canada to protect its largest cities from hail. The Alberta 
hail-suppression program uses many of the techniques that we used in 
the AMP-North Dakota program.
    After the horrendous devastation and loss of life from Hurricanes 
Katrina and Rita, I have been asked several times about the 
possibilility of hurricane modification. And while I don't have the 
time to fully address this issue today, I firmly believe that we are in 
a much better position, both with the science and the undergirding 
technology, than we were when Project STORMFURY was terminated in 1982. 
We now understand that both tornadoes and hurricanes exhibit a life-
cycle, and both exhibit natural instabilities during their lifetimes. 
The key atmospheric condition leading to the decay of both destructive 
vortices is cooler, drier air, as well as cooling sea surface 
conditions for decaying hurricanes. Recent observational and modeling 
studies both suggest that there may be new approaches possible for 
future weakening or track-diversion of hurricanes threatening our 
shoreline. The key uncertainty, and one which requires enhanced 
observations, is more continuous and accurate monitoring of the natural 
fluctuations in hurricane intensity and path. For example, Wilma 
intensified in the western Caribbean overnight from a Category 1 to a 
Category 5 hurricane, resulting in the lowest pressure ever measured in 
the eye of an Atlantic-basin hurricane. There are now some very 
exciting computer models that reproduce both hurricane intensification 
and tornado behavior in remarkable detail. If we mount a sustained, 
adequately-funded national program of weather modification research and 
technology transfer, I believe that it may also be possible to 
successfully weaken tornadoes (or, alternatively, shorten their life-
cycles). I would be pleased to elaborate details on promising 
approaches and testable hypotheses for tornado/hurricane amelioration 
at some future time. I am presently collaborating with colleagues, Drs. 
Rosenfeld and Woodley, in testing a new technique for identifying storm 
systems with high threat of producing tornadoes. This technique 
utilizes NOAA satellite data at various wavelengths and shows promise 
in improving NWS lead-times for tornado watches and warnings.
    Even after the demise of the AMP Program in 1995, operational 
weather modification programs have continued to expand and flourish in 
the U.S. This is reflected in the annual reports of all such projects 
to NOAA, as required by law. Most of these projects are supported by 
the States, utilities or the private-sector. One of my private-sector 
colleagues recently noted his estimate of total annual expenditures in 
the U.S. of $25-30 million for weather modification operational 
projects. There is now very little Federally-supporting research to aid 
these operational programs in evaluation, or improving their 
technological base. We have some of the best cutting-edge science in 
NOAA research, NCAR and the universities that can help the private 
weather modification operators improve their evaluation of seeding 
effects, as well as improved targeting of seeding materials in suitable 
cloud systems. I like the idea of establishing the Weather Modification 
Advisory Board, with broad representation, which is needed to set the 
national agenda and priorities for these and other urgent water 
management issues facing the country. I have many close scientific 
colleagues in NOAA weather research who would welcome the opportunity 
to contribute to a reinvigorated national program of weather 
modification research and technology transfer, if support can be found. 
In fact, our Boulder laboratories won a Department of Commerce Gold 
Medal for our contributions to the recently-completed NWS Modernization 
and AWIPS computer workstations. I am one who has long believed, that 
to be successful in any form of purposeful weather modification, we 
must first do a very good job of predicting the natural phenomena.
    In closing, I want to assure you that the U.S. has the technology 
and the best and brightest scientists who would welcome the opportunity 
to reinvigorate the weather modification field. These are very 
challenging issues and the worsening water crises in the West and 
elsewhere demand our urgent attention.

    Senator DeMint. Thank you.
    Dr. Defelice?

 STATEMENT OF DR. THOMAS P. DeFELICE, PAST PRESIDENT, WEATHER 
                    MODIFICATION ASSOCIATION

    Dr. DeFelice. I am honored to appear here today in regards 
to Senate bill 517.
    My name is Dr. Tom DeFelice. I have two degrees in 
atmospheric science, bachelor's in--and Ph.D., and a master's 
in atmospheric physics.
    I was the WMA President--``WMA'' stands for the Weather 
Modification Association--President for 2 years, between 2000 
and 2002. I'm now the Chair of the WMA Public Information and 
Outreach Committee. I began the process before you today by 
engaging a retired State Senator from Texas, John Leedom, who 
then engaged Senator Hutchison and her staff.
    My experiences and the literature demonstrate that weather 
modification technologies generally possess the potential to 
increase the rainfall when applied under appropriate 
conditions. I don't have time to go into all the details of 
those conditions, but will gladly take some questions later.
    The scientific and operational communities generally agree 
that the recent advances in the relevant general physical 
processes and technologies used to assess those processes come 
together and form the basis for the need to have a sustained 
national program to carry out basic and applied research in 
weather modification sciences. This happens to be one of the 
main recommendations of the Garstang report.
    Basically, I see Senate bill 517 as the next logical step 
as one could derive from the Garstang report. It is about 
research and development of technologies. But it's not just any 
research and any development; it is research and development 
that could ultimately be used to produce a product that could 
help everybody. It could help commerce, improve better 
forecasts of the weather, which could then help our 
agricultural entities better plan their crops, for example. It 
could help science by improving their models, improving our 
understanding of processes, especially those of hurricanes, to 
understand why hurricanes like Katrina could form, for example. 
But it also could reinvigorate education. It could help 
transportation by planning for certain weather events that we 
may or may not be able to detect, or take for granted--freezing 
rain, icing of roads, for example. Predicting and mitigating 
adverse weather conditions in these cases would have a great 
benefit, not only to lives, but also to our economies. It could 
also help airports in certain circumstances, particularly 
during the winter, by clearing out fogs.
    Technology could benefit, since the results, information 
from this bill could be another application directing its 
innovators and be used to transfer said information to the 
public. So the research from this bill could also help the 
people. And that's what it's all about. Because the people are 
faced with an impending water shortage. By the decade of the 
2020s, our models predict that 40 percent of the world's 
population are going to be living in drought-stressed areas. 
And we need to start doing something now about that, because if 
we wait, it will be too late, because we haven't been doing the 
research to develop and to make sure we have all our ducks in a 
row, all our technologies up to par, so that they could be of 
some more use (for those that are not useful already). We need 
to do something about this, because 8 percent of the total 
water budget on the globe is due to consumption, and only 1 
percent of the water budget is currently an input. That's rain. 
Now, with global warming--and the results of that are predicted 
to minimize precipitation falling to the ground--that means by 
the decade of the 2020s, or shortly thereafter, less than 1 
percent of the total water budget is going to be an input. That 
means we're--and with the population growing, we're going to 
consume more water, so we're going to have a really, really 
grave and--how do I say it?--big problem on our hands, because, 
well, there won't be enough water to feed our crops.
    And so, I strongly urge everybody--on this Committee and 
elsewhere--to consider passing this bill and bringing it to its 
companion bill in the House.
    [The prepared statement of Dr. DeFelice follows:]

 Prepared Statement of Dr. Thomas P. DeFelice, Past President, Weather 
                        Modification Association

    I am honored to appear before you today in regards to Senate bill 
517, the Weather Modification Research and Technology Transfer 
Authorization Act of 2005. My name is Dr. Thomas P. DeFelice. My 
background in weather modification began when I was 15 by reading books 
on the subject; I had many sessions with WMA forefathers Schaefer & 
Vonnegutt as an undergrad; my academic and subsequent professional 
career concentrated on learning the fundamentals of weather 
modification relevant sciences and its technologies; President of WMA 
(2000-2002), Chair WMA Public Information Committee (since 2004). I now 
work as the contractor program manager for two NOAA programs. I am here 
on my own behalf, expressing my own beliefs. I began this process, 
engaged John Leedom, who engaged Senator Hutchison & her staff, and 
here we are today.
    Weather modification technologies are key to dealing with many 
present and potential future scientific, environmental, and 
socioeconomic issues like steadily increasing human suffering and 
property damage caused by hazardous weather (e.g., severe weather-
Katrina, supercooled fog, freezing rain), fire, and other environmental 
problems related to ``acid rain,'' biological or chemical warfare, for 
instance. Their application generally increases rainfall amount. Rain 
contributes 1 percent of the total global water budget. Global water 
consumption presently makes up 8 percent of the total global water 
budget. Models estimate about 40 percent of the world's population will 
live in water--stressed areas by the decade of the 2020s and 
consumption will increase. Further, air pollution (global warming) is 
reported to reduce the amount of rainfall. Hence, a need to develop new 
technologies, while applying proven techniques. Water rationing and 
water management techniques are useful, they do not replenish the 
reduced rainwater amount. (They simply put a small band-aid on a wound 
that requires multiple stitches.) Therefore they fail to resolve the 
issues' root cause. Alternatively, weather modification technologies 
increase the rainfall amount (compared to normal) under certain 
conditions. (They simply put multiple stitches on a wound that requires 
multiple stitches.) Therefore weather modification technologies can 
resolve the issues' root cause, which will be ensured through the 
research and development program set up by passing S. 517 and its 
companion bill (H.R. 2995).
    Yet some retain an issue concerning whether operational cloud 
seeding activities, especially associated with convective clouds, 
achieved the intended results claimed. Additional evaluations should 
pacify this issue, especially with the recent technological advances. 
This would also help us answer, are weather modification technologies 
ready to increase water resources and alleviate, or possibly prevent 
drought. Yes, they are ready to increase water resources under certain 
cases, based on the available 60-year literature archive, and first-
hand information. S. 517 provides a research and development 
infrastructure for a program that addresses and ultimately resolves 
these issues, while nurturing and developing these technologies to 
provide better returns on our investment.
    The scientific and operational communities generally agree that the 
recent advances in the relevant, general physical processes and 
technologies need to be capitalized upon in the form of a concerted and 
sustained national program to carry out basic and applied research in 
weather modification (e.g., Garstang report, Orville report, NRC). 
However, the perceptions between the science and operational 
communities differ, namely, (1) Interpretation of scientific proof, (2) 
Current status of cloud models as applied to weather modification, (3) 
Evidence of glaciogenic seeding in convective clouds, (4) Cold season 
orographic seeding, (5) Evidence for hail suppression, and (6) Support 
for specific purposes. The cold season orographic seeding perceptual 
difference (4) is not a significant difference in perspective, since 
the science community (post Garstang report) sees orographic cloud 
seeding as a particularly promising candidate for an intensive field 
program.
    Perceptual difference (6) reflects the differences between the 
individual cultures (i.e., scientific versus operational) than anything 
else. Nonetheless, no implementation plans have been proposed.
    I summarize an implementation plan for S. 517 for consideration by 
its Weather Modification Board, which addresses all issues. This 
implementation plan is born from sound scientific basis derived from 60 
years of lessons learned exercises, recent technological advances, and 
science community recommendations (Garstang report, Orville report, 
NRC). Societal need provides an impetus for developing systems and 
technologies that monitor and manage atmospheric events, the creation 
of a new weather modification research program and implementation plan 
according to standard engineering practices. This plan helps mitigate 
the perceptual diferences by setting up an integrated team approach to 
its activities, and by insisting that its research and development 
component be geared toward improving the effectiveness of operations.
    It calls for administering the resources and the activities for all 
research and development efforts directed toward optimizing the 
technologies used to manage atmospheric processes and their resultants 
(e.g., collision-coalescence, hurricanes, orographic and convective 
precipitation, frozen rain). Its mission would be to develop the 
technologies used for operational activities that help provide 
sustainable water supplies and reduce airborne hazards. This includes 
improving the understanding of the relevant processes and their 
simulations, as well as the evaluation methods (physical; chemical; 
statistical-random, non-random) for operational activities through 
cooperative multidisciplinary research and development arrangements and 
a well-designed outreach effort. Further development is needed for 
successful application of weather modification technologies to mitigate 
hurricane and tornado damage, minimize the negative affects of 
anthropogenic air pollution on precipitation efficiency, or to 
neutralize negative effects from pollutant deposition. Such requires a 
modeling approach, then verification, and transition to operational 
use.
    The modern weather modification technologies applied to disperse 
supercooled fog, augment the ice crystal process in cloud systems, 
especially orographic clouds, are very effective. Statistical 
reanalysis using 50+ years of Sierra data show strong signals that the 
seeding did produce seasonal snowpack increases of 5-10 percent; as 
measured by stream runoff data (a conservative surrogate for snowpack 
increases). Thus, orographic systems, especially winter orographic 
systems, would help maximize S. 517 derived program success. Garstang's 
report apparently was unclear on this fact.
    The implementation plan does not include less developed 
technologies (e.g., extraterrestrial mirrors; ionization, chaos theory-
related approaches; sonic initiation of precipitation, making a 
hurricane disappear from conventional radar), or technologies that are 
already known to be too costly for the benefits they provide if any 
(e.g., using vertical pointing jet engines, or mono-layer films to 
suppress moisture flow into hurricanes), based on insufficient 
scientific and engineering test results, which pose a significant risk 
to programmatic success. The plan does not support funding for Federal 
Operational cloud seeding, except for small tests/experiments of new 
technologies.
    In closing, failure to send S. 517 to appropriate committee 
hearings with the companion Udall Bill (H.R. 2995), translates into 
desertification, more destructive weather, and even jeopardizes our 
standing as the premier scientists, engineers and practitioners in this 
area. We have an implementation plan for the program under this bill. 
We have the best technology, the brightest personnel to successfully 
carry out the implementation plan. The 60 years scientific and 
engineering basis helps assure success. Passing S. 517 now, helps avert 
adverse efects of desertification, Katrina-like hurricane destruction, 
and air pollution effect on the rain process, for example. Thus, this 
tax payer fully supports passage of Senate bill S. 517 with a 
sufficient budget and duration.

    Senator DeMint. Thank you, Doctor.
    Dr. Garstang?

       STATEMENT OF MICHAEL GARSTANG, Ph.D., PROFESSOR, 
UNIVERSITY OF VIRGINIA; CHAIR, COMMITTEE ON CRITICAL ISSUES IN 
WEATHER MODIFICATION RESEARCH, NATIONAL RESEARCH COUNCIL OF THE 
                       NATIONAL ACADEMIES

    Dr. Garstang. Thank you, Chairman Hutchison and Senator 
DeMint.
    My name is Michael Garstang. I am a Distinguished Emeritus 
Research Professor in the Department of Environmental Sciences 
at the University of Virginia. I'm a fellow of the American 
Meteorological Society. And I was also Chair of the 2003 
National Research Council's Committee on Critical Issues in 
Weather Modification Research. The National Research Council is 
the operating arm of the National Academies, chartered by 
Congress in 1863 to advise the Government on matters of science 
and technology.
    This afternoon, I will give you a brief summary of the 
status of weather modification research as described in our 
report. You'll be provided with the executive summary of that 
report.
    Efforts to minimize harmful weather effects go far back in 
time. The first serious scientific efforts in the United States 
began in the 1950s. This effort was not sustained. During the 
past 30 years, there has been a progressive decline in weather 
modification research. Research support related to weather 
modification in the United States has dropped to less than a 
half a million dollars per year in the year 1999, from a high 
of $20 million in the late 1970s.
    There have been, concurrently, significant advances in 
technology over the past 30 years. This has greatly improved 
our ability to observe, understand, and predict the weather. 
These advances, however, have not been either collectively or 
persistently applied to the problem of weather modification.
    This decline in research must--may be the result of a 
combination of factors, including early over-optimistic claims, 
unrealistic expectations, and a failure to provide 
scientifically demonstrable successes. But, despite these 
limitations, and because of the considerable pressures that my 
colleagues have already indicated resulting from drought, hail, 
floods, and storm damage, private and State agencies spend 
significant resources to attempt to modify the weather.
    In 2001, there were 66 operational weather modification 
programs in ten States in the Union, and much more activity 
overseas. How do we overcome this disparity between our 
willingness to attempt to modify the weather and our reluctance 
to fund research to understand such activities?
    The NRC's committee concluded that, first, with few 
exceptions, there is still no convincing scientific proof of 
the efficacy of intentional weather modification. In some 
instances, encouraging results have been observed, but this 
evidence has not been subjected to adequate testing.
    Second, that despite this lack of proof, scientific 
understanding has progressed on many fronts. For instance, 
there has been substantial improvements in ice-nucleating 
capabilities of new seeding materials. Also, new technologies 
such as satellite imagery are giving us tools to better 
understand microphysical processes that lead to precipitation. 
Dr. Golden referred to this. These advantages will help us 
focus and optimize weather modification research.
    Third, that if progress in establishing our capability to 
modify the weather is to be made, the focus must be on key 
uncertainties that hamper progress. For example, there are 
critical gaps in our understanding of the complex chain of 
physical processes that lead to rain, snow, and hail.
    The NRC committee's primary recommendation is the 
establishment of a coordinated national program of weather 
modification research designed to reduce these and other key 
uncertainties. The program should consist of a sustained 
research effort that uses a balanced approach of modeling, 
laboratory studies, and field measurements. Instead of focusing 
on near-term operational applications of weather modification, 
the program should address fundamental questions. It should 
take full advantage of recent related research and advances in 
observational, computational, and statistical technologies.
    Our Committee--in our--in the Committee's opinion, it is 
premature to initiate large operational weather modification 
programs. Instead, great opportunity exists to coordinate 
research efforts to address fundamental questions that will 
lead to credible scientific results. Focused investigation of 
atmospheric processes plus coupled technological applications 
will advance understanding and bring many unexpected benefits. 
This research will place us in a position to determine whether, 
how, and to what extent weather systems can be modified.
    In conclusion, the NRC committee emphasizes that weather 
modification should be viewed as a fundamental and legitimate 
part of the atmospheric and environmental science. Growing 
demand for fresh water, increasing levels of damage and loss of 
life resulting from severe weather, the undertaking of 
operational activities without the guidance of a sound 
scientific foundation, and the reality of inadvertent 
atmospheric changes, the science community now has the 
opportunity, the challenge, and the responsibility to assess 
the potential efficacy and value of intentional weather 
modification.
    Thank you for the opportunity to testify. I will be happy 
to answer questions.
    [The prepared statement of Dr. Garstang follows:]

Prepared Statement of Michael Garstang, Ph.D., Professor, University of 
 Virginia; Chair, Committee on Critical Issues in Weather Modification 
     Research, National Research Council of the National Academies

    Good afternoon Chairmen Hutchison and DeMint, Ranking Members Bill 
Nelson and Ben Nelson, and Members of the Subcommittees. My name is 
Michael Garstang, and I am a Distinguished Emeritus Research Professor 
in the Department of Environmental Sciences at the University of 
Virginia. I'm a fellow of the American Meteorological Society (AMS) and 
have served on numerous AMS committees. I was also the chair of the 
2003 National Research Council's (NRC) Committee on Critical Issues in 
Weather Modification Research. The National Research Council is the 
operating arm of the National Academies, chartered by Congress in 1863 
to advise the government on matters of science and technology.
    This afternoon I will give you a brief summary of the status of 
weather modification research, as described in our NRC report, the 
major uncertainties that exist, and convey the Committee's conclusions 
and recommendations. We will also provide an Executive Summary of the 
report which lists the key findings and recommendations in greater 
detail.
    Efforts to minimize harmful weather impacts go back far in time. In 
the last 30 years, significant evidence has accumulated that human 
activities unintentionally affect the weather on scales ranging from 
local to global. Many of the same fundamental principles underlie both 
intentional and unintentional weather modification. Yet during this 30-
year time period, there has been a progressive decline in weather 
modification research. Research support related to weather modification 
in the United States had dropped to less than $0.5M per year in 1999 
from a high of $20M in the late 1970s. During the same period, there 
have been significant advances in technology. This has greatly improved 
our ability to observe, understand, and predict the weather. These 
advances, however, have not been either collectively or persistently 
applied to the problem of weather modification.
    This decline in research is likely the result of a combination of 
factors, including early overly-optimistic claims, unrealistic 
expectations, and failure to provide scientifically demonstrable 
successes. But despite these limitations, and because of considerable 
pressures resulting from drought, hail, floods, and storm damage, 
private and state agencies actually spend significant resources on 
attempts to modify the weather. In 2001, there were 66 operational 
weather modification programs in 10 states and much more activity 
overseas.
    How do we overcome this disparity between our willingness to 
attempt to modify weather and our reluctance to fund research to 
understand such activities? The 2003 National Academies committee that 
I chaired was charged to provide an updated assessment of the current 
state and the future of weather modification research, from new 
technologies to advances in numerical modeling and operations. A 
summary of our report is included in my written testimony. In my 
comments, I want to focus on our conclusions and recommendations.
    First, with a few exceptions, the Committee concluded that there 
still is no convincing scientific proof of the efficacy of intentional 
weather modification efforts. In some instances encouraging results 
have been observed, but this evidence has not been subjected to 
adequate testing.
    Second, despite this lack of proof, the Committee concluded that 
scientific understanding has progressed on many fronts. For instance, 
there have been substantial improvements in the ice-nucleating 
capabilities of new seeding materials. Also, new technologies such as 
satellite imagery are giving us tools to better understand the 
microphysical processes that lead to precipitation, and these advances, 
in time can help focus and optimize weather modification research.
    Third, the Committee stated that if progress in establishing our 
capability to modify the weather is to be made, intellectual and 
technical resources must be brought to bear on the key uncertainties 
that hamper progress. For example, there are critical gaps in our 
understanding of the complex chain of physical processes that lead to 
rain, snow, and hail.
    Finally, and most importantly, the Committee called for the 
establishment of a coordinated national program of weather modification 
research designed to reduce these and other key uncertainties. The 
program should consist of a sustained research effort that uses a 
balanced approach of modeling, laboratory studies, and field 
measurements. Instead of focusing on near-term operational applications 
of weather modification, the program should address fundamental 
research questions. It should take full advantage of recent related 
research and advances in observational, computational, and statistical 
technologies, by:

  <bullet> Capitalizing on new remote and in situ observational tools 
        to carry out exploratory and confirmatory experiments in a 
        variety of cloud and storm systems;

  <bullet> Improving model treatment of cloud and precipitation 
        physics;

  <bullet> Improving the use of current computational and data 
        assimilation methods; and

  <bullet> Capitalizing on existing field facilities and developing 
        partnerships among research groups and select operational 
        programs.

    In the Committee's opinion, it is premature to initiate large-scale 
operational weather modification programs. However, a great opportunity 
exists to coordinate research efforts to address the fundamental 
questions that will lead to credible scientific results. Focused 
investigation of atmospheric processes, coupled with technological 
applications, will advance understanding and bring many unexpected 
benefits and results. In time, this research will place us in a 
position to determine whether, how, and to what extent weather and 
weather systems can be modified.
Closing Thoughts
    The NRC Committee emphasizes that weather modification should be 
viewed as a fundamental and legitimate element of atmospheric and 
environmental science. Owing to the growing demand for fresh water, the 
increasing levels of damage and loss of life resulting from severe 
weather, the undertaking of operational activities without the guidance 
of a careful scientific foundation, and the reality of inadvertent 
atmospheric changes, the scientific community now has the opportunity, 
challenge, and responsibility to assess the potential efficacy and 
value of intentional weather modification technologies.
    Thank you for the opportunity to testify. I would be happy to 
answer any questions the Subcommittees might have.

                           Executive Summary

    The weather on planet Earth is a vital and sometimes fatal force in 
human affairs. Efforts to control or reduce the harmful impacts of 
weather go back far in time. In recent decades our ability to observe 
and predict various types of meteorological systems has increased 
tremendously. Yet during this same period there has been a progressive 
decline in weather modification research. Extravagant claims, 
unrealistic expectations, and failure to provide scientifically 
demonstrable success are among the factors responsible for this 
decline. Significantly, every assessment of weather modification dating 
from the first National Academies' report in 1964 has found that 
scientific proof of the effectiveness of cloud seeding was lacking 
(with a few notable exceptions, such as the dispersion of cold fog). 
Each assessment also has called for a dedicated research effort 
directed at removing or reducing basic scientific uncertainties before 
proceeding with the application of weather modification methods. Yet, 
this type of intensive, committed effort has not been carried out.
    In this, the latest National Academies' assessment of weather 
modification, the Committee was charged to provide an updated 
assessment of the ability of current and proposed weather modification 
capabilities to provide beneficial impacts on water resource management 
and weather hazard mitigation. It was asked to examine new 
technologies, such as ground-based, in situ, and satellite detection 
systems, and fast reacting seeding materials and dispensing methods. 
The Committee also was asked to review advances in numerical modeling 
on the cloud and mesoscale and consider how improvements in computer 
capabilities might be applied to weather modification. This study was 
not designed to address policy implications of weather modification; 
rather it focused on the research and operational issues. Specifically, 
the Committee was asked to:

  <bullet> review the current state of the sciences of weather 
        modification and the role of weather prediction as it applies 
        to weather modification, paying particular attention to the 
        technological and methodological developments of the last 
        decade;

  <bullet> identify the critical uncertainties limiting advances in 
        weather modification science and operation;

  <bullet> identify future directions in weather modification research 
        and operations for improving the management of water resources 
        and the reduction in severe weather hazards; and

  <bullet> suggest actions to identify the potential impacts of 
        localized weather modification on large-scale weather and 
        climate patterns.

Issues and Trends in Weather Modification
Motivation
    Increasing demands for water make the potential for enhancing the 
sources, storage, and recycling of freshwater a legitimate area of 
study. Destruction and loss of life due to severe weather, which is 
increasing with population growth and changing demographics, require 
that we examine ways to reduce these impacts. In addition, there is 
ample evidence that human activities, such as the emission of 
industrial air pollution, can alter atmospheric processes on scales 
ranging from local precipitation patterns to global climate. These 
inadvertent impacts on weather and climate require a concerted research 
effort, yet the scientific community has largely failed to take 
advantage of the fact that many of the scientific underpinnings of 
intentional and unintentional weather modification are the same.

Current Operational and Research Efforts
    Operational weather modification programs, which primarily involve 
cloud-seeding activities aimed at enhancing precipitation or mitigating 
hail fall, exist in more than 24 countries, and there were at least 66 
operational programs being conducted in 10 states across the United 
States in 2001. No Federal funding currently is supporting any of these 
operational activities in the United States. Despite the large number 
of operational activities, less than a handful of weather modification 
research programs are being conducted worldwide. After reaching a peak 
of $20 million per year in the late 1970s, support for weather 
modification research in the United States has dropped to less than 
$500,000 per year.

The Paradox
    Clearly, there is a paradox in these divergent trends: The Federal 
Government is not willing to fund research to understand the efficacy 
of weather modification technologies, but others are willing to spend 
funds to apply these unproven techniques. Central to this paradox is 
the failure of past cloud-seeding experiments to provide an adequate 
verification of attempts at modifying the weather. A catch-22 ensues in 
which the inability to provide acceptable proof damages the credibility 
of the entire field, resulting in diminished scientific effort to 
address problems whose solutions would almost certainly lead to better 
evaluations.

Limitations and Problems
    The dilemma in weather modification thus remains. We know that 
human activities can affect the weather, and we know that seeding will 
cause some changes to a cloud. However, we still are unable to 
translate these induced changes into verifiable changes in rainfall, 
hail fall, and snowfall on the ground, or to employ methods that 
produce credible, repeatable changes in precipitation. Among the 
factors that have contributed to an almost uniform failure to verify 
seeding effects are such uncertainties as the natural variability of 
precipitation, the inability to measure these variables with the 
required accuracy or resolution, the detection of a small induced 
effect under these conditions, and the need to randomize and replicate 
experiments.

Conclusions
    The Committee concludes that there still is no convincing 
scientific proof of the efficacy of intentional weather modification 
efforts. In some instances there are strong indications of induced 
changes, but this evidence has not been subjected to tests of 
significance and reproducibility. This does not challenge the 
scientific basis of weather modification concepts. Rather it is the 
absence of adequate understanding of critical atmospheric processes 
that, in turn, lead to a failure in producing predictable, detectable, 
and verifiable results. Questions such as the transferability of 
seeding techniques or whether seeding in one location can reduce 
precipitation in other areas can only be addressed through sustained 
research of the underlying science combined with carefully crafted 
hypotheses and physical and statistical experiments.
    Despite the lack of scientific proof, the Committee concludes that 
scientific understanding has progressed on many fronts since the last 
National Academies' report and that there have been many promising 
developments and advances. For instance, there have been substantial 
improvements in the ice-nucleating capabilities of new seeding 
materials. Recent experiments using hygroscopic seeding particles in 
water and ice (mixed-phase) clouds have shown encouraging results, with 
precipitation increases attributed to increasing the lifetime of the 
rain-producing systems. There are strong suggestions of positive 
seeding effects in winter orographic glaciogenic systems (i.e., cloud 
systems occurring over mountainous terrain). Satellite imagery has 
underlined the role of high concentrations of aerosols in influencing 
clouds, rain, and lightning, thus drawing the issues of intentional and 
inadvertent weather modification closer together. This and other recent 
work has highlighted critical questions about the microphysical 
processes leading to precipitation, the transport and dispersion of 
seeding material in the cloud volume, the effects of seeding on the 
dynamical growth of clouds, and the logistics of translating storm-
scale effects into an area-wide precipitation effect. By isolating 
these critical questions, which currently hamper progress in weather 
modification, future research efforts can be focused and optimized.
    Additional advances in observational, computational, and 
statistical technologies have been made over the past two to three 
decades that could be applied to weather modification. These include, 
respectively, the capabilities to (1) detect and quantify relevant 
variables on temporal and spatial scales not previously possible; (2) 
acquire, store, and process vast quantities of data; and (3) account 
for sources of uncertainty and incorporate complex spatial and temporal 
relationships. Computer power has enabled the development of models 
that range in scale from a single cloud to the global atmosphere. 
Numerical modeling simulations--validated by observations whenever 
possible--are useful for testing intentional weather modification and 
corresponding larger-scale effects. Few of these tools, however, have 
been applied in any collective and concerted fashion to resolve 
critical uncertainties in weather modification. These numerous 
methodological advances thus have not resulted in greater scientific 
understanding of the principles underlying weather modification. This 
has not been due to flawed science but to the lack of support for this 
particular field of the science over the past few decades. As a result 
there still is no conclusive scientific proof of the efficacy of 
intentional weather modification, although the probabilities for 
seeding-induced alterations are high in some instances. Despite this 
lack of scientific proof, operational weather modification programs to 
increase rain and snowfall and to suppress hail formation continue 
worldwide based on cost versus probabilistic benefit analyses.

Recommendations
    Recommendation: Because weather modification could potentially 
contribute to alleviating water resource stresses and severe weather 
hazards, because weather modification is being attempted regardless of 
scientific proof supporting or refuting its efficacy, because 
inadvertent atmospheric changes are a reality, and because an entire 
suite of new tools and techniques now exist that could be applied to 
this issue, the Committee recommends that there be a renewed commitment 
to advancing our knowledge of fundamental atmospheric processes that 
are central to the issues of intentional and inadvertent weather 
modification. The lessons learned from such research are likely to have 
implications well beyond issues of weather modification. Sustainable 
use of atmospheric water resources and mitigation of the risks posed by 
hazardous weather are important goals that deserve to be addressed 
through a sustained research effort.
    Recommendation: The Committee recommends that a coordinated 
national program be developed to conduct a sustained research effort in 
the areas of cloud and precipitation microphysics, cloud dynamics, 
cloud modeling, and cloud seeding; it should be implemented using a 
balanced approach of modeling, laboratory studies, and field 
measurements designed to reduce the key uncertainties listed in Box 
ES.1. This program should not focus on near-term operational 
applications of weather modification; rather it should address 
fundamental research questions from these areas that currently impede 
progress and understanding of intentional and inadvertent weather 
modification. Because a comprehensive set of specific research 
questions cannot possibly be listed here, they should be defined by 
individual proposals funded by a national program. Nevertheless, 
examples of such questions may include the following:

  <bullet> What is the background aerosol concentration in various 
        places, at different times of the year, and during different 
        meteorological conditions? To what extent would weather 
        modification operations be dependent on these background 
        concentrations?

  <bullet> What is the variability of cloud and cell properties 
        (including structure, intensity, evolution, and lifetime) 
        within larger clusters, and how do clouds and cells interact 
        with larger-scale systems? What are the effects of localized 
        seeding on the larger systems in which the seeded clouds are 
        embedded?

  <bullet> How accurate are radar reflectivity measurements in 
        measuring the differences between accumulated rainfall in 
        seeded and unseeded clouds? How does seeding affect the drop-
        size distribution that determines the relationship between the 
        measured radar parameter and actual rainfall at the surface?

-----------------------------------------------------------------------
        ------------------------------------------------
                                BOX ES.1
Summary of Key Uncertainties
    The statements in boldface type are considered to have the highest 
priority.
Cloud/precipitation microphysics issues
  <bullet> Background concentration, sizes, and chemical composition of 
        aerosols that participate in cloud processes

  <bullet> Nucleation processes as they relate to chemical composition, 
        sizes, and concentrations of hygroscopic aerosol particles

  <bullet> Ice nucleation (primary and secondary)

  <bullet> Evolution of the droplet spectra in clouds and processes 
        that contribute to spectra broadening and the onset of 
        coalescence

  <bullet> Relative importance of drizzle in precipitation processes

Cloud dynamics issues
  <bullet> Cloud-to-cloud and mesoscale interactions as they relate to 
        updraft and downdraft structures and cloud evolution and 
        lifetimes

  <bullet> Cloud and sub-cloud dynamical interactions as they relate to 
        precipitation amounts and the size spectrum of hydrometeors

  <bullet> Microphysical, thermodynamical, and dynamical interactions 
        within clouds

Cloud modeling issues
  <bullet> Combination of the best cloud models with advanced observing 
        systems in carefully designed field tests and experiments

  <bullet> Extension of existing and development of new cloud-resolving 
        models explicitly applied to weather modification

  <bullet> Application of short-term predictive models including 
        precipitation forecasts and data assimilation and adjoint 
        methodology in treated and untreated situations

  <bullet> Evaluation of predictive models for severe weather events 
        and establishment of current predictive capabilities including 
        probabilistic forecasts

  <bullet> Advancement of the capabilities in cloud models to simulate 
        dispersion trajectories of seeding material

  <bullet> Use of cloud models to examine effects of cloud seeding 
        outside of seeded areas

  <bullet> Combination of cloud models with statistical analysis to 
        establish seeding effects

Seeding-related issues
  <bullet> Targeting of seeding agents, diffusion and transport of 
        seeding material, and spread of seeding effects throughout the 
        cloud volume

  <bullet> Measurement capabilities and limitations of cell-tracking 
        software, radar, and technologies to observe seeding effects

  <bullet> Analysis of recent observations with new instruments of high 
        concentrations of ice crystals

  <bullet> Interactions between different hydrometeors in clouds and 
        how to best model them

  <bullet> Modeling and prediction of treated and untreated conditions 
        for simulation

  <bullet> Mechanisms of transferring the storm-scale effect into an 
        area-wide precipitation effect and tracking possible downwind 
        changes at the single cell, cloud cluster, and floating target 
        scales
-----------------------------------------------------------------------
        ------------------------------------------------

    The tasks involved in weather modification research fall within the 
mission responsibilities of several government departments and 
agencies, and careful coordination of these tasks will be required.
    Recommendation: The Committee recommends that this coordinated 
research program include:
  <bullet> Capitalizing on new remote and in situ observational tools 
        to carry out exploratory and confirmatory experiments in a 
        variety of cloud and storm systems (e.g., Doppler lidars and 
        airborne radars, microwave radiometers, millimeter-wave and 
        polarimetric cloud radars, global positioning system (GPS) and 
        cell-tracking software, the Cloud Particle Imager, the Gerber 
        Particle Volume Monitor, the Cloud Droplet Spectrometer). 
        Initial field studies should concentrate on areas that are 
        amenable to accurate numerical simulation and multiparameter, 
        three-dimensional observations that allow the testing of 
        clearly formulated physical hypotheses. Some especially 
        promising possibilities where substantial further progress may 
        occur (not listed in any priority) include:

        --Hygroscopic seeding to enhance rainfall. The small-scale 
        experiments and larger-scale coordinated field efforts proposed 
        by the Mazatlan workshop on hygroscopic seeding (WMO, 2000) 
        could form a starting point for such efforts. A randomized 
        seeding program with concurrent physical measurements 
        (conducted over a period as short as three years) could help 
        scientists to either confirm or discard the statistical results 
        of recent experiments.

        --Orographic cloud seeding to enhance precipitation. Such a 
        program could build on existing operational activities in the 
        mountainous western United States. A randomized program that 
        includes strong modeling and observational components, 
        employing advanced computational and observational tools, could 
        substantially enhance our understanding of seeding effects and 
        winter orographic precipitation.

        --Studies of specific seeding effects. This may include studies 
        such as those of the initial droplet broadening and subsequent 
        formation of drizzle and rain associated with hygroscopic 
        seeding, or of the role of large (>1 mm) particles (e.g., sea 
        spray) in reducing droplet concentrations in polluted regions 
        where precipitation is suppressed due to excess concentrations 
        of small cloud condensation nuclei (CCN).

  <bullet> Improving cloud model treatment of cloud and precipitation 
        physics. Special focus is needed on modeling CCN, ice nuclei 
        processes, and the growth, collision, breakup, and coalescence 
        of water drops and ice particles. Such studies must be based on 
        cloud physics laboratory measurements, tested and tuned in 
        model studies, and validated by in situ and ground 
        observations.

  <bullet> Improving and using current computational and data 
        assimilation capabilities. Advances are needed to allow rapid 
        processing of large quantities of data from new observations 
        and better simulation of moist cloud and precipitation 
        processes. These models could subsequently be used as planning 
        and diagnostic tools in future weather modification studies, 
        and to develop techniques to assist in the evaluation of 
        seeding effects.

  <bullet> Capitalizing on existing field facilities and developing 
        partnerships among research groups and select operational 
        programs. Research in weather modification should take full 
        advantage of opportunities offered by other field research 
        programs and by operational weather modification activities. 
        Modest additional research efforts directed at the types of 
        research questions mentioned above can be added with minimal 
        interference to existing programs. A particularly promising 
        opportunity for such a partnership is the Department of Energy 
        Atmospheric Radiation Measurement program/Cloud and Radiation 
        Test bed (DOE ARM/CART) site in the southern Great Plains 
        (Oklahoma/Kansas) augmented by the National Aeronautics and 
        Space Administration (NASA) Global Precipitation Mission. This 
        site provides a concentration of the most advanced observing 
        systems and an infrastructural base for sustained basic 
        research. The National Center for Atmospheric Research (NCAR) 
        and the National Oceanic and Atmospheric Administration's 
        Environmental Technology Laboratory (NOAA/ETL) also could serve 
        as important focal points for weather modification research.

    In pursuing research related to weather modification explicit, 
financial and collegial support should be given to young aspiring 
scientists to enable them to contribute to our fundamental store of 
knowledge about methods to enhance atmospheric resources and reduce the 
impacts of hazardous weather. It must be acknowledged that issues 
related to weather modification go well beyond the limits of physical 
science. Such issues involve society as a whole, and scientific weather 
modification research should be accompanied by parallel social, 
political, economic, environmental, and legal studies.
    The Committee emphasizes that weather modification should be viewed 
as a fundamental and legitimate element of atmospheric and 
environmental science. Owing to the growing demand for fresh water, the 
increasing levels of damage and loss of life resulting from severe 
weather, the undertaking of operational activities without the guidance 
of a careful scientific foundation, and the reality of inadvertent 
atmospheric changes, the scientific community now has the opportunity, 
challenge, and responsibility to assess the potential efficacy and 
value of intentional weather modification technologies.
Closing Thoughts
    The Academy Committee emphasizes that weather modification should 
be viewed as a fundamental and legitimate element of atmospheric and 
environmental science. The growing demand for fresh water, the 
increasing levels of damage and loss of life resulting from severe 
weather, the undertaking of operational activities without the guidance 
of a careful scientific foundation, and the reality of inadvertent 
atmospheric changes gives the scientific community the opportunity, 
challenge, and the responsibility to determine how and to what extent 
humans can influence the weather.

    Senator DeMint. Thank you, Doctor.
    Chairman Hutchison is here. I believe she would like to 
make an opening statement.

            STATEMENT OF HON. KAY BAILEY HUTCHISON, 
                    U.S. SENATOR FROM TEXAS

    Senator Hutchison [presiding]. Thank you.
    Well, I very much appreciate the three of you coming. I'm 
sorry I'm late, but I do want to talk to you. I've read your 
testimony, and I've also read the executive summary of the 
report in which you participated. This was an issue brought to 
me by a distinguished former State Senator from Texas, John 
Leedom, who is with us today, and his wife, Betty, I see. But I 
thought that the points that he made to me were certainly worth 
pursuing.
    And it seems to me, from all of your testimony, that 
further research is something that the scientific community 
wants to see happen. And I think, from what Dr. Garstang has 
just said, that the view of the scientific community and the 
committee that you are on is that we shouldn't be running out 
there doing things until we have the research that either 
proves what the long-term effects are going to be, or not. And 
I think it's very important that we pursue this research, which 
is why I've introduced the legislation.
    I am very interested in the findings and recommendations of 
the Committee in which they say that it is recommended that we 
have a sustained research effort in this area. And I want to 
pursue this a little further when we get into questions. I know 
that Senator DeMint has to be on the floor at 3 p.m., so I'm 
going to defer to him to ask his questions first. But I am 
going to want to talk to the three of you about how we should 
pursue this research, which is the purpose of my bill, and to 
get the best results, and especially to determine, from what 
was said in the report--that there is a growing demand for 
fresh water, the increasing levels of damage and loss resulting 
from severe weather--would indicate that we should be 
researching what we can do to mitigate damage and also provide 
a more steady, even, and balanced source of fresh water, rather 
than having a Hurricane Katrina while there is a drought in 
other parts of our country.
    So, I will pursue that, but I will yield to Senator DeMint, 
because he has another--this, I will tell you, just so that you 
understand--because this is the last week or 10 days of our 
session, all of us have hearings and conference committees, 
which is what I had to attend earlier, and why I'm late. We had 
a conference committee on our transportation bill, and I'm sure 
you're going to the floor for your bill. So, why don't you go--
--
    Senator DeMint. OK.
    Senator Hutchison.--forward, and I will----
    Senator DeMint. Thank you----
    Senator Hutchison.--follow you.
    Senator DeMint.--Chairman.
    Just a quick question, and I will have to leave in a just a 
moment, but----
    This is a fascinating subject for me. The idea that we 
could actually impact weather is exciting and, I guess, 
frightening, in some ways. But, Dr. Golden, you mentioned just 
some successes, the successes of adding to the snowfall in 
mountains and, again, I guess we can't get into a lot of 
science today, but I assume if we're able to get additional 
snow in one area, that some other area is not going to get as 
much rainfall or moisture-fall. I mean, we're not putting more 
moisture in the air, we're just collecting it in a different 
place. Is that the concept?
    Dr. Golden. This is one of the very areas that we need to 
do a lot of additional research under Senator Hutchison's bill. 
But the work that has been done--and there are--we did some of 
this on our FACE program in Florida. We looked at what you're 
talking about is extra-area effects. If you seed in a target 
area, are you robbing Peter to pay Paul in areas that are 
downwind? And both in the FACE Project, as well as in other 
States--in Utah, we looked at possible downwind effects from 
seeding in the mountains of Utah. Did they see any decreased 
snowfall in Southwestern Wyoming? The answer is no. Even the 
most ardent proponents of the mountain seeding will tell you 
that you're only processing--you're only affecting a very small 
fraction of the water vapor that passes over the mountains. And 
so, all of the results in both winter oragraphic mountain 
seeding, as well as convective storm seeding suggests that 
either you have no effect downwind or it's a slight increase. 
But, again, there needs to be additional research. There's 
nothing that suggests large increases outside your target area. 
It's either no effect or very weak positive effect.
    Senator DeMint. And you mentioned other countries 
apparently using this successfully. I mean, are there any 
studies that the scientific community would recognize that says 
Australia, or, I think you mentioned, China, have actually been 
successful in weather modification?
    Dr. Golden. Some of them, yes, but it's still--I think what 
Dr. Garstang says is true, there still needs to be work on 
evaluation. And while I'm not a strong proponent of using only 
statistical evaluation, I think, for example, there are--some 
of the new computer models and tracers--we now have come a long 
way in just the last 10 years; and this is an effort that we 
pioneered in this country. There are now tracer techniques that 
you can use right when you seed to tell you not only how much 
increase in snow is due to the seeding, but how much of the 
seeding material actually made it into the snow that fell. And 
so, this has just been developed over the last 10 years, and 
they're just starting to apply this technology in the Australia 
program. So----
    Senator DeMint. Well, thank----
    Senator Hutchison. Could I ask a question just on that----
    Senator DeMint. Sure.
    Senator Hutchison.--same subject, while you're here?
    There are ten States and probably 66 operational 
modification programs just ongoing now by States and local 
water agencies. Is there any place that those projects that are 
ongoing, operations that are ongoing, where data is collected 
at a central point so that we do see the effects of those 
particular operations as they are supposed to be working?
    Dr. Golden. No. You raise a very good point. I mean, that's 
what we're all about today, is--I talked to one of the biggest 
operators that supports many of these programs, both in the 
U.S.--many of the operational weather modification programs--
and they told me that--he estimates that there is now an 
expenditure per year, a combined expenditure, just in our 
country, of $25 to $30 million per year on operations. But 
since the demise of my AMP program, there is no central focus. 
And, frankly, most of the operational groups that support the 
seeding activity feel that most of their funding has to go to 
the seeding effort, to the operations. So, they look to the 
Government. They look to the Federal Government to play the 
major role here.
    To be honest with you, some of them, recognizing the value 
of research to helping them evaluate what they do, are 
supporting small research efforts. The newest entry into this, 
by the way, is the State of Wyoming. They're about to start a 
new $8 million program of snowpack seeding enhancement.
    Senator Hutchison. At the very least, we ought to be----
    Senator DeMint. Yes.
    Senator Hutchison.--gathering the data.
    Senator DeMint. So, we're spending $25 million a year, but 
we really don't have any quantitative data that suggests that 
it works, just more of an--empirical evidence that people 
believe there is some impact, right?
    Dr. Golden. They do their own evaluation. No, I don't mean 
to say--they are not--not much of that money is going to 
support any of the research that Dr. Garstang recommended in 
his report. Most of that is for their operations and some 
evaluation.
    Senator Hutchison. But nothing is gathered nationally----
    Dr. Golden. Right.
    Senator Hutchison.--to see what the effects are.
    Senator DeMint. You're going to have to excuse me.
    Senator Hutchison. OK, thank you.
    I wanted to ask you, because we've been through some 
particularly bad weather situations this year, is there any 
thought in the scientific community that you could, by, say, 
seeding, maybe, a hurricane in the early stages, that you could 
lessen its effect, make it start dropping earlier, and lessen 
its effect when it hits land? Is there any potential for that 
kind of modification? We've been talking about modification, 
obviously, over land, where you're trying to get rain for 
crops. But we also are looking at ways to maybe even out the 
kind of weather and rainfall that we would have. Is there any 
hope that we could eventually use some kind of scientific means 
like this to take out the violence of a storm?
    Dr. Garstang. I'll pick that one up, Senator Hutchison.
    Yes, as Dr. Golden said, there was a program, STORMFURY, 
that did, indeed, attempt to--and they used the word 
``moderate'' a hurricane, change its wind speeds. And although 
it's controversial now, there was a conclusion that they had, 
indeed, got evidence for a reduction of 15 percent in the wind 
speeds. Now, if you take a hurricane wind from 100 miles an 
hour down to 85 miles an hour, the damage is the square of the 
wind velocity, so you mitigate damage considerably. However, as 
I said, there's question about that.
    There are no current methodologies that could be employed 
to reduce or to deflect a hurricane. However, there are very 
promising computer models that are beginning to suggest how we 
might approach this. And, interestingly enough from what Dr. 
Golden said, one of the most advanced pieces of work is being 
done by the European community's National Center for 
Meteorology or long-range/medium-range forecasting. And it's 
using our ideas. But there are efforts in this country where 
the model suggests that very small effects might have quite 
drastic consequences. And this is a characteristic of the 
atmosphere.
    I'm sure you know that the whole theory of chaos came from 
a meteorologist, Dr. Ed Lorenz, from MIT, where he was trying 
to determine what, in all these small effects--and to use the 
kind of analogy that he used, the flapping of a butterfly's 
wings in Brazil creates a tornado in Kansas. In other words, 
these very tiny effects can have, ultimately, very large 
consequences.
    Models now are being used to find these. Are they there, 
and can we find them? And Dr. Ross Hoffman's work suggests 
that, yes, they are. It's not clear how you would necessarily 
bring that about, but if we don't pursue this work, we will 
never know the answer.
    So, the answer is: not right now, but yes in the future.
    Senator Hutchison. Thank you.
    Dr. DeFelice?
    Dr. DeFelice. Yes, I'd like to just add to this. I think 
the--excuse me, technical difficulties--I think under your 
bill, once it's passed, I would recommend to the board an 
implementation plan for the research that would be conducted 
under it, and part of that plan would involve hurricane 
modification and some of the issues that my distinguished 
colleagues have mentioned. But I would just want to emphasize 
the need to do modeling studies to test all possible seeding 
scenarios relative to the result of those inputs. Get the best 
models that we can on hurricanes, because there are really--
there's some really good ones out there, even in the United 
States. And then have some of our computer scientists add a 
computer program--or a subroutine that would act like we were 
seeding them, but not do any seeding.
    Under our plan, the implementation plan for this bill, 
there would be no way that the Government would be doing any 
operational cloud-seeding or anything like that. They would--
hurricane modification and all that research would have to be 
done by models. And once the modeling studies were complete, 
then one might form a hypothesis which might be testable out in 
the field. But we would know what would happen or think we know 
what would happen, based on the models. I just wanted to 
emphasize the use of models in any severe-storm type of 
modification research that happens under this bill. At least 
that would be my view and hope.
    Senator Hutchison. If you were going to do an 
implementation plan--say, we pass the bill, we have 
appointments to the board, and you would want a representative 
board from the different areas of weather expertise, but what 
areas do you think would be the most productive in which to do 
research? Obviously, cloud-seeding for fresh water. And 
hurricane or violent weather modification would be two. What 
else could we gain from this kind of effort?
    Dr. DeFelice. I'll start, and then I'm sure there'll be 
plenty to add to it.
    I would think that we might consider looking into clearing 
out fog in the vicinity of airports, and perhaps other areas, 
particularly in the Northeast, which might benefit from 
increased sunlight particularly during the winter. So, these 
would be cold clouds. Another area would be hygroscopic 
seeding. And there's a lot that's not known about that. There's 
a lot of promising results.
    Senator Hutchison. ``Hygroscopic,'' being?
    Dr. DeFelice. Putting small salt nuclei into the proper 
part of the cloud so that those nuclei would help enhance the 
interaction between the droplets in the cloud, so that would 
then, in turn, produce more precipitation.
    Senator Hutchison. Is that different from other types of 
cloud-seeding, or are there different forms?
    Dr. DeFelice. It's just that--that is different in the 
sense that it's just a different way to trigger the 
precipitation process in the cloud. You can use agents that 
would grow ice crystals in the cloud. But those clouds would 
have to be cold enough for the ice to exist, if it was to form.
    Senator Hutchison. OK.
    Dr. DeFelice. But those would be the primary areas.
    Senator Hutchison. Any others?
    Dr. Golden. I want to emphasize--and I wish Senator DeMint 
were here--that one of the terrible things that happened when 
we cut STORMFURY in the early 1980s was that, beginning at that 
point, the research funding for hurricane research in NOAA 
steadily declined. And it's declined ever since. The other 
thing that happened is that most of our research on cloud 
physics evaporated. People left the agency, people changed 
their careers. In fact, there are almost no cloud physicists 
left--cloud physicists in NOAA have become an endangered 
species.
    Why is that important? It means that if you don't 
understand the cloud physics, as Dr. Garstang emphasized, you 
have no hope of understanding how you might beneficially modify 
clouds to produce increased rainfall. And that feeds back into 
being able to predict heavy rain and heavy snow. In other 
words, this is one of the top priorities for my colleagues in 
the National Weather Service. I mean, we all get frustrated 
that our skill scores, our forecast accuracies for heavy rain 
or heavy snow aren't what they need to be. And so, this is all 
linked together, so that there is no doubt in my mind that any 
investment by this bill in weather modification research will 
yield big payoffs in the prediction arena. And, as I said in my 
testimony, ultimately we're never going to be able to convince 
ourselves or anyone else that we're successful in weather 
modification unless we can do a good job of predicting the 
unmodified natural event. That's the--that's one of the most 
fundamental questions.
    Dr. Garstang. I certainly agree with all of those 
sentiments. But I'd like to emphasize that if the bill could 
bring cohesive and sustained effort directed at solving the 
outstanding problems that we know are roadblocks to our 
progress, if you can remove these roadblocks, you can progress. 
And if you simultaneously, with this coherent program, brought 
to bear on it all of the technological advances that have 
occurred in the last 30 years, there would be immediate and 
tremendous advances. Dr. Golden has referred to a couple.
    For example, in the successful, I think, attempts at 
increasing snowpack on the Sierras and western slopes of the 
Rockies, we didn't know where the seeding material was going. 
We now can determine precisely where it's going. And often it 
didn't go where we thought it was going, didn't go where it 
would do any good. We also can precisely describe the flow 
fields through the cloud. We couldn't do that 10 years ago.
    These techniques have not been coherently brought to bear 
on weather modification. As soon as we do that, we will have 
immediate results.
    Let me give you an analogy. Let's assume that all of 
cardiac investigations were prevented from using the 
technological advances that have occurred in heart research 
over the last 20 years. Where would we be in preventing heart 
disease today? We would be way behind where we are.
    We have not brought these same kind of sophisticated 
techniques, which are in place, to bear on the problem. And if 
you could create that situation where that was possible, you 
would get immediate results.
    Senator Hutchison. Have you looked at my bill? I would like 
to ask each of you. And do you have any suggestions on any ways 
to improve it?
    Basically, what I'm trying to do is establish this research 
and a board that would be made up of experts from these various 
areas with various expertise that would be advisory to the 
Department of Commerce and NOAA. And my question is, Is there 
something that you would suggest that would make it any more 
able to achieve the goal of more emphasis on research, an 
implementation of the research, and an advisory board made up 
of experts that would really focus the Department on the areas 
that should be looked at that we've discussed?
    Dr. DeFelice. I think, as--let me just check--thank you. As 
I looked through the bill, I think one rule of thumb that I'd 
like to see--and I believe I've seen this--was to have a 
multidisciplinary approach to the research agenda, and have the 
board basically get together with these multidisciplinary 
components of the field and discuss the priorities. Now, we 
come up with priorities, and this is great. And, from what I 
heard they make sense. But there might not be enough money to 
carry out all of those particular items. So, I think we need to 
make sure that we have representatives from all components of 
the system that we're trying to research, including the general 
public. So, if the general public is going to be involved, then 
we might have to have an outreach component, which I strongly 
urge be in there. I think it is. And we would want 
representatives from the scientists--science community, maybe 
some sociologists, economics-type people, commerce, and, so on. 
But the point is, we want people that are affected by the 
system, and we need those people to represent each component of 
that system, so that when we do develop the priorities, 
everybody will be represented in that process, and will be part 
of it, and will--should stay with that process from beginning 
to end.
    Senator Hutchison. Well, I'd--we certainly----
    Dr. DeFelice.--that's great.
    Senator Hutchison.--do have a multidisciplinary concept, 
and if there are any other disciplines that should be added, I 
would like for you to write me a letter about that later.
    Yes?
    Dr. Golden. No, I don't want to tinker with your bill. I 
think that the board is well represented. Is NSF--do they have 
a representation on the board?
    Senator Hutchison. It is the--one representative of the 
National Center for Atmospheric Research of the National 
Science Foundation.
    Dr. Golden. OK. Because they, in the past--this is no 
longer the case, but in the past, I know that during my AMP 
Program, we did--some of the States actually got--funded 
proposals through NSF, and then NSF has also stopped supporting 
weather modification research. But, I mean, your bill--I think 
it's fine. I think it says that the board can appoint extra 
staff, and it can appoint subcommittees. And, no, I wouldn't 
want to second-guess that. I think once they're assembled, then 
they can start tackling this issue of national priorities, and 
I think they'll come to the AMS, they'll come to the American 
Society of Civil Engineers, they'll come, hopefully, to the 
Weather Modification Association, and--I mean, these are the 
venues where the national priorities could be set. I have no 
problem with that.
    Senator Hutchison. Dr. Garstang?
    Dr. Garstang. I have only had the benefit to discuss your 
bill. I have not read it. We hadn't--it wasn't in time when I 
got notified to appear here. But I would be glad to look at it 
carefully, because I gather, from both yourself and from 
discussions, that you've incorporated a lot of ideas, results 
from the NRC report. And I would be glad to send these to you--
to your staff in writing right away.
    Senator Hutchison. I would really be pleased if you would, 
because I think we all are on the same wavelength regarding the 
need to have an emphasis here, trying to implement that through 
an advisory board. I think the advisory board--we tried to make 
it representative of the different areas of expertise, and--so, 
I'd like to move the bill, so I'd like to have all of your 
comments and look forward to perhaps being able to do this in--
--
    OK, I'm told that Senator Ben Nelson had a witness 
recommendation who was unable to attend the hearing and has 
submitted a statement to be included in the record, Commander 
Donald Wilhite, Director of the National Drought Mitigation 
Center at the University of Nebraska. *
---------------------------------------------------------------------------
    * The information referred to has been printed in the Appendix.
---------------------------------------------------------------------------
    Senator Hutchison. OK. Well, I have no further questions. 
Is there anything further that any of you would like to add for 
the record?
    [No response.]
    Senator Hutchison. If not, we will give you a copy of the 
bill, Dr. Garstang. And I hope that we can all come together. 
And I hope Senator DeMint will work with us, as well, to try to 
move this forward.
    Thank you very much for your time, and I learned a lot, and 
I think we can make some great headway in this area with your 
expertise.
    Thank you.
    [Whereupon, at 3:25 p.m., the hearing was adjourned.]

                            A P P E N D I X

            Prepared Statement of Hon. E. Benjamin Nelson, 
                       U.S. Senator from Nebraska

    Due to the short notice of the scheduling of the Joint Subcommittee 
hearing on S. 517, ``The Weather Modification Research and Technology 
Transfer Authorization Act of 2005,'' I am unable to attend the hearing 
today. This is an important issue and I regret not being able to 
reschedule prior commitments in order to be there.
    However, I did want to take the opportunity, as we discuss weather 
modification, to highlight an area of research that is happening at the 
University of Nebraska related to drought mitigation. While the focus 
of this hearing is weather modification, I believe it is relevant to 
address another aspect important to this area of research, which is 
adequate monitoring of weather patterns so that we may appropriately 
respond to and mitigate the effects of adverse weather.
    The National Drought Mitigation Center (NDMC), located at the 
University of Nebraska-Lincoln, was established in 1995 and performs a 
number of activities of importance to Nebraska, the region, and the 
Nation. Its functions include maintaining a web-based information 
clearinghouse, drought monitoring, the preparation of the weekly U.S. 
Drought Monitor (which covers all 50 states), the development of 
drought policy and planning techniques, collaborative research on 
improved decision tools for agricultural producers and natural resource 
managers, and outreach and training workshops for Federal, State, and 
foreign governments and organizations.
    The NDMC has worked with most states in the development of drought 
mitigation and response plans aimed at reducing vulnerability to 
episodes of severe drought. The NDMC has worked closely with the 
Western Governors' Association and NOAA in formulating the proposal for 
a National Integrated Drought Information System. This system is 
currently being implemented by NOAA with the assistance of the NDMC.
    With this statement, I am submitting a statement from Dr. Donald 
Wilhite, Director of the NDMC, which details more fully the work they 
are doing at the University of Nebraska. I believe the research that is 
being conducted there is critical to our ability to respond to the 
devastating effects of drought.
    This research is especially relevant to Nebraska and other Plains 
states right now, which have been experiencing drought conditions for 
several years; but the research done by the NDMC has a national 
benefit. Droughts have plagued all regions of the country over the past 
10 years and many parts of the West have been in drought for 5 to 7 
years. They are often slow in developing, but the costs and indirect 
effects have a substantial impact on water supplies, agriculture, 
energy production, natural resources, recreation and tourism, 
transportation, development, and the environment.
    The effect of drought in recent years in my state has been 
devastating. Its impact has been felt throughout the economy of 
Nebraska. While drought typically does not produce dramatic news 
footage like a hurricane or tornado will, it is nonetheless, a 
disaster.
    I believe it is crucial to encourage more investment in research in 
programs such as the NDMC. The research done upfront in monitoring 
drought trends will help our capabilities to mitigate and respond to 
its effects in a much more effective manner. I am hopeful that we can 
hold a hearing on drought in the Disaster Prevention and Prediction 
Subcommittee next year. This is an important issue that I believe 
warrants more discussion.

                                 ______
                                 
 Prepared Statement of Dr. Donald Wilhite, Director, National Drought 
           Mitigation Center, University of Nebraska-Lincoln

    I appreciate the opportunity to submit this statement on behalf of 
the National Drought Mitigation Center (NDMC), which is located at the 
University of Nebraska in Lincoln. Climate variability is an important 
issue that affects everyone across the United States. This is true 
whether it is related to heating bills for the upcoming winter; to El 
Nino or La Nina events that might cause flooding or drought; or the 
frequency of natural hazards striking our Nation, like the numerous 
hurricanes during the past two years. The truth is that drought is one 
of the costliest hazards to affect the country: FEMA has estimated that 
the annual losses due to drought are approximately $8 billion, which is 
a higher estimate than for any other natural hazard. Hurricanes 
Katrina, Rita, and Wilma may change that placement slightly, but 
drought remains a serious threat across the United States. The impacts 
resulting from drought are complex, and as our vulnerability to 
droughts changes with the shifting pressures on the Nation's finite 
water resources, impacts due to drought may increase in the future.
    I would like to emphasize that drought is a normal part of the 
climate across the United States. At any given time, approximately 14 
percent of the Nation is in severe drought or worse. It is also 
important to note that multiple-year events (like the 1930s and 1950s, 
and the 1960s along the East Coast) are not unusual events in the 
paleo-climate record. For this reason, we need to be prepared for 
droughts, and focus our attention on mitigation and planning strategies 
that would reduce drought impacts before droughts strike.
    The National Drought Mitigation Center (NDMC) was formed in 1995. 
At that time, there was no national initiative or program that focused 
on drought monitoring, mitigation, and preparedness and the Nation was 
just coming out of a period of serious drought lasting from 1988 to 
1994. I have been involved in drought-related research and outreach 
since 1980, and the formation of the NDMC developed out of a national 
conference on drought that I organized in 1994. During the first year, 
our funding came from both NOAA and USDA. Since then, the NDMC's base 
operating budget is provided through USDA and supplemented by numerous 
grants from NOAA, NSF, NASA, USGS, BoR, and other USDA agencies.
    The NDMC's program is directed at lessening societal vulnerability 
to drought through a risk-based management approach. The NDMC's 
activities include promoting and conducting research and outreach 
activities on drought monitoring, mitigation, and preparedness 
technologies; improving coordination of drought-related activities and 
actions within and between levels of government; and assisting in the 
development, dissemination, and implementation of appropriate 
mitigation and preparedness technologies in the public and private 
sectors. Emphasis is placed on research and outreach projects and 
mitigation/management strategies and programs that stress risk 
management measures rather than reactive, crisis management actions.
    After the NDMC formed, a severe drought struck the Southern Plains 
and Southwestern United States in 1995-96. Beginning in 1999, the 
Nation has experienced another series of drought events. These droughts 
peaked in 2000 and 2002, when close to 40 percent of the Nation was 
considered to be in severe drought or worse. At the end of July 2002, 
all 50 states were experiencing some level of dryness or drought, 
according to the U.S. Drought Monitor. For states in the West (Montana, 
Wyoming, Nebraska, New Mexico, and Colorado), the drought became a 
multiple-year event that continues in some of these locations. For 
states in the Southeast (Georgia and South Carolina, for example), an 
unprecedented five-year drought took place between 1998 and 2002.
    Even during 2005, when the percent area of the country experiencing 
serious drought fell below that of previous years, an extreme drought 
spread over parts of Illinois, Iowa, Missouri, Arkansas, and Texas. For 
some locations, the summer was one of the driest ever. At a few other 
locations, 2005 is on pace to be the driest year on record, surpassing 
even the dryness experienced during the famous drought years of the 
1930s and 1950s. The area in drought in 2005 included a portion of the 
Nation's Corn Belt. Estimates of crop losses for Illinois originally 
totaled $1.3 billion, but recent estimates have improved that number to 
approximately $0.7 billion, mainly in the northern and central parts of 
the state. These drought losses could have been much worse without the 
well-timed moisture remnants moving across the area as a result of 
several of the hurricanes that struck the Gulf Coast in 2005. The last 
big drought to hit the Corn Belt hard was in 1988, with estimated crop 
production-related losses of approximately $15 billion. We narrowly 
dodged a huge bullet in 2005.
    Through these recent droughts, the NDMC has continued to work 
across the country on its mission. The NDMC maintains its involvement 
in drought monitoring through the U.S. Drought Monitor map, which is a 
weekly assessment of the current drought conditions. Two of the NDMC 
staff, Mark Svoboda and Michael Hayes, serve as authors for this 
product, along with partners at NOAA and USDA. The NDMC also 
participates in the monthly North American Drought Monitor, which 
includes collaboration with Canadian and Mexican scientists. Several 
countries and regions around the world have expressed interest in 
adopting the Drought Monitor format to assess drought conditions. The 
NDMC has been involved in a NATO project with the Czech Republic to 
investigate drought monitoring opportunities in Central Europe. In 
November 2005, the NDMC, NOAA, and USDA will be participating in a 
bilateral workshop with the Chinese Meteorological Agency on drought 
monitoring strategies for China.
    The NDMC is continuing to conduct research in the broadly defined 
areas of drought monitoring, mitigation, and planning. We continue to 
work with NOAA and the Western Governors' Association on the 
implementation of the National Integrated Drought Information System 
(NIDIS). The NDMC recently launched a new web-based product directed at 
development of a web-based drought impacts tool to help NOAA, USDA, and 
other agencies determine the impacts associated with drought in a 
timely manner. The NDMC has a proposal pending with NOAA to further 
support this activity.
    In terms of outreach, education, and training, the NDMC continues 
to maintain and improve its website (drought.unl.edu) and the U.S. 
Drought Monitor website. These two sites resulted in more than 12 
million hits in 2005. We organized and conducted three drought 
workshops during 2005 and participated in many other workshops and 
conferences throughout the United States and internationally. The 
Center continues to assist other states and local governments in the 
development or revision of drought plans. Thirty-eight states now have 
drought response or mitigation plans in place, largely through the 
efforts of the NDMC.
    In summary, the NDMC strongly supports more research and 
development to investigate issues of climate variability, natural 
hazards, and drought. Our experience with drought is that, in the long 
run, by making a wise initial investment, the Nation will save money by 
improving our capability for drought monitoring, mitigation, and 
response. Initial investments like these will reduce the adverse 
affects of future climate events on our Nation.
                                 ______
                                 
  Executive Office of the President, Office of Science and 
                                          Technology Policy
                                  Washington, DC, December 13, 2005
Hon. Kay Bailey Hutchison,
Chairman,
Senate Subcommittee on Science and Space,
Commerce, Science, and Transportation Committee,
Washington, DC.

Dear Senator Hutchison:

    This letter is in response to S. 517, ``the Weather Modification 
Research and Development Policy Authorization Act of 2005,'' reported 
out by the Senate Committee on Commerce, Science and Transportation on 
November 17, 2005 (Senate Report No. 109-202). While the Administration 
recognizes the Committee's interest in weather modification research 
and development, there is a host of issues--including liability, 
foreign policy, and national security concerns--that arose in the past 
and should be adequately considered before the U.S. Government 
undertakes the coordinated national research program this legislation 
would require.
    The Administration respectfully requests that you defer further 
consideration of the bill pending the outcome of an inter-agency 
discussion of these issues that the Office of Science and Technology 
Policy (OSTP) would coordinate--with the Department of Justice on legal 
issues, with the Department of State on foreign policy implications, 
with the Departments of Defense and State on national security 
implications, and with pertinent research agencies to consider the 
reasons the U.S. Government previously halted its work in this area. At 
the conclusion of this review, the Administration would report back to 
you on the results of these discussions so you are fully apprised of 
all possible issues associated with authorizing a new Federal program 
on this topic.
    Specifically, the Administration believes concerns in the following 
areas must be better understood:

  <bullet> Local Political & Legal Ramifications

        --Because small scale weather modification (e.g., cloud 
        seeding) may promote rain in one area to the detriment of 
        another, weather modification could result in inter-state 
        (including Indian Tribes) litigation or private citizen 
        litigation against the modification programs.

        --The legal and liability issues pertaining to weather 
        modification, and the potential adverse consequences on life, 
        property, and water resource availability resulting from 
        weather modification activities, must be considered fully 
        before the U.S. Government could take responsibility for this 
        new research program.

  <bullet> International and Foreign Policy Implications

        --Small and large scale (e.g., hurricane) weather modification 
        efforts could benefit the United States to the detriment of 
        other countries (such as Canada or Mexico).

        --Given global weather patterns, whether one country ``owns'' 
        its weather so as to assert intra-border control with extra-
        border consequences, must be considered under present 
        international conventions.

        --The manner in which such a program could benefit or harm the 
        present U.S. positions on foreign policy matters, such as 
        global warming/climate change, should also be considered.

  <bullet> National Security Implications

        --The U.S. Government's previous weather modification programs 
        were part of our Cold War history; restarting them today could 
        promote (possibly hostile) foreign responses.

        --In 1978, the United States became a party to an international 
        treaty banning the use of weather modification for hostile 
        purposes. While modification for peaceful purposes is allowed, 
        whether well-intentioned programs could be considered 
        ``hostile'' and perceived to violate this ban should be 
        considered.

  <bullet> Research Issues

        --The Department of Commerce's National Oceanic and Atmospheric 
        Administration's (NOAA) primary atmospheric and meteorological 
        research focus is on improving weather forecasting, which has 
        proven to save lives and property. NOAA abandoned weather 
        modification activities some time ago in favor of other 
        research areas that more directly relate to the agency's core 
        mission and responsibilities.

        --Redirecting funding to focus on weather modification can 
        shift funds away from other important programs such as research 
        to improve weather forecasting capabilities for severe weather 
        events and research to better understand climate variability 
        and change.

    In addition to discussing these concerns on an interagency basis, 
and in recognition of your interest in this area, OSTP would be willing 
to charter a study to address the above issues. This study would be 
conducted by the Science and Technology Policy Institute (STPI), a 
federally-chartered research and development center that provides 
objective, technical advice to OSTP. The study would address the 
history and current status of weather modification research. Such a 
study will help us understand the technical position of this field of 
science, the significance of the issues discussed above, and the 
field's historical context.
    The Administration requests that you not move forward with your 
legislative proposal until a better understanding can be developed of 
the full range of possible implications.
    Thank you for your consideration.
        Sincerely,
                                    John H. Marburger, III,
                                                          Director.
                                 ______
                                 
  Response to Written Questions Submitted by Hon. Daniel K. Inouye to 
                          Dr. Joseph H. Golden
Weather Board
    Question 1. What is this Board's legal and line of authority 
relationship to the Secretary of Commerce and the Administrator of 
NOAA?
    Answer. There is no legal and line of authority relationship of the 
Board to the Secretary of Commerce and NOAA. However, a Subcommittee 
would be established under OSTP and a board of private advisors will 
support the Subcommittee's efforts. NOAA will be a Co-Chair of the 
Subcommittee with NSF.

    Question 2. What is the legal and scientific basis for creating 
such a powerful entity?
    Answer. This entity is being established to study the effectiveness 
of a weather modification program and would not establish direct 
authority to conduct operational weather modification.

    Question 3. The establishment of this Board appears to place 
weather modification research above all other types of atmospheric 
research as a priority for funding within the Federal system. Why?
    Answer. No, I do not believe the bill places weather modification 
research above any other type of atmospheric research within the 
Federal agencies. Further, one cannot divorce weather modification 
research from basic atmospheric research. One must not forget that a 
prerequisite for meaningful weather modification is that one must first 
understand the phenomenon being modified. Thus, weather modification 
research always adds to the body of knowledge of basic weather we 
already have now, resulting in better forecasts and warnings of most 
weather phenomena. I strongly believe that now is the time to begin a 
sustained Federal effort in weather modification research, not only to 
determine optimum conditions and appropriate technologies for winter 
snowpack and summer rainfall enhancement, but for studies of severe 
storm modification (including hurricanes and tornadoes) as well. I have 
no doubt that some of the most urgent weather modification research 
will directly benefit NWS/NOAA goals as well in short-term weather 
forecasts and warnings.

    Question 4. Would this board have subpoena powers and the power to 
issue ``rules,'' as is suggested by the bill?
    Answer. No, I don't anticipate that the Board, in either bill, 
would have subpoena powers. Nor do I feel that it should issue 
``rules,'' as other groups like the ASCE already issue best-practice 
documents for weather modification operations. The Board should 
organize and coordinate a national Federal program in weather 
modification research and technology development, and recommend needed 
funding to accomplish these tasks (through the expert Subcommittee).

    Question 5. Is the purpose of the Board to essentially create an 
independent agency dedicated to the promotion of weather modification 
research and distribution of grants? Please explain.
    Answer. No, again, the Board and its Subcommittee of experts should 
develop a coordinated national program of research through existing 
Federal agencies, including especially NOAA, NSF, and NASA.

                                 ______
                                 
 Response to Written Questions Submitted by Hon. E. Benjamin Nelson to 
                          Dr. Joseph H. Golden

Legal Issues of Weather Modification
    Has anyone considered the legal issues involved in weather 
modification? There is only a certain amount of moisture in the 
atmosphere; if artificial measures are used to make it rain in a 
particular location to relieve drought, for example, that water is 
diverted from another location where it would have ultimately fallen. 
This raises similar issues as water rights controversies, where rivers 
have been diverted to accommodate certain interests at the expense of 
others.
    Question 1. Has the scientific community considered the legal 
implications of weather modification?
    Answer. Yes, the scientific community has carefully considered the 
legal implications of weather modification for many years. One of my 
esteemed colleagues in the weather modification community (deceased) 
was Ray Jay Davis, a lawyer from Salt Lake City. My colleague, Dr. Tom 
DeFelice will include more details and some of Mr. Davis' writings on 
legal issues in his response to your question.

    Question 1a. Shouldn't Congress be concerned that any government 
supported Weather Modification Board might support research and 
development of weather modifications without considering the legal 
implications?
    Answer. I believe that the Board will be composed of a broad cross-
section of public and private individuals who will act responsibly, 
with additional oversight by OSTP. Legal implications become most 
important in weather modification operations, but at this time, no 
operational seeding will be conducted by the Federal Government in any 
research supported by the bill. The Congress passed a Public Law in 
l971 that requires all operational weather modification projects in the 
U.S. to report details of their projects at least once a year to NOAA.

    Question 2. Have you addressed the basic question of who owns the 
weather?
    Answer. There is no sole ownership of the weather, therefore, any 
large-scale operational weather modification projects have always had 
to address both legal and environmental issues. For example, the NOAA/
Navy joint hurricane modification Project STORMFURY had to produce an 
extensive study of possible environmental impacts prior to its 
commencement, and these were all documented in an EIS Report subjected 
to peer review. Currently, the Weather Modification Association 
certifies weather modification operators, and includes ethical and 
legal guidelines in the process.
Funding
    I am concerned that there are a number of areas within weather 
research that are inadequately funded. For example, drought is of 
particular concern to my state right now. The National Drought 
Mitigation Center (NDMC) in Nebraska has only been in existence since 
1995. Previously, no national initiative or program existed to monitor 
drought trends. The work at the NDMC in monitoring drought, not only in 
Nebraska, but nationwide, will help us mitigate and respond to its 
effects in a much more effective manner. This is only one of numerous 
programs addressing weather monitoring, mitigation, and response that 
is years behind where it could be.
    Question 1. Should funding of new research on weather modification 
be a greater priority than research in the weather we already have now?
    Answer. No, I do not believe either version of the bill places 
weather modification research above any other type of atmospheric 
research within the Federal agencies. One cannot divorce weather 
modification research from basic atmospheric research. One must not 
forget that a prerequisite for meaningful weather modification is that 
one must first understand the phenomenon being modified. Thus, weather 
modification research always adds to the body of knowledge of basic 
weather we already have now, resulting in better forecasts and warnings 
of most weather phenomenon. I strongly believe that now is the time to 
begin a sustained Federal effort in weather modification research, not 
only to determine optimum conditions and appropriate technologies for 
winter snowpack and summer rainfall enhancement, but for studies of 
severe storm modification (including hurricanes and tornadoes) as well. 
I have no doubt that some of the most urgent weather modification 
research will directly benefit NWS/NOAA goals as well in short-term 
weather forecasts and warnings.

    Question 2. Shouldn't we ensure that existing research is 
adequately funded in order to protect commercial and governmental 
interests before making a commitment to support private research?
    Answer. Yes, we should ensure adequate funding for Federal weather 
research. This bill will not make a commitment to direct private 
research in weather.
                                 ______
                                 
     Response to Written Questions Submitted by Hon. Bill Nelson to
                          Dr. Joseph H. Golden

Funding
    The Hurricane Research Division of NOAA's Office of Atmospheric 
Research has been inadequately funded for many years. As a result, 
research staff vacancies have gone unfilled, years of data have gone 
unanalyzed, and the science of hurricane prediction--especially with 
regard to intensity--is years behind where it could be.
    Question 1. Should funding of new research on weather modification 
be a greater priority than research in the weather we already have now?
    Answer. No, I believe that the two types of research are both 
needed and are not mutually exclusive. Weather modification research 
will certainly add to the body of knowledge of the weather we already 
have now. This research will be supportive and complementary. Many of 
the most critical research issues for weather modification involve 
technology and scientific questions that directly impact the short-term 
weather forecast and warning problems faced by my colleagues in the 
National Weather Service and the U.S. Military.

    Question 2. Shouldn't we ensure that government hurricane research 
is adequately funded in order to protect lives before we make a 
commitment to support private research in weather research that has 
primarily only commercial applications?
    Answer. Yes, we should ensure adequate funding for government 
research. I am knowledgeable about the need for hurricane research. 
This bill would not make a commitment to support private research in 
weather.
    I believe that the premise of this question is incorrect, because 
the bulk of the research and funding to carry it forward would occur in 
the Federal weather labs and the universities. The weather modification 
research would have applications extending far beyond ``commercial 
applications.'' The outputs of this research would also have immediate 
payoffs to helping Federal agencies reach their GPRA goals in improved 
observations, modeling and improved forecast/warning performance for 
NWS. For example, improved 3-D models for determining transport of 
seeding materials into cloud systems could also be used for tracking 
bioterrorism releases in populated areas and for improved forecasts of 
air quality.
                                 ______
                                 
  Response to Written Questions Submitted by Hon. Daniel K. Inouye to
                         Dr. Thomas P. DeFelice

Weather Board
    Question 1. What is this board's legal and line of authority 
relationship to the Secretary of Commerce and the Administrator of 
NOAA?
    Answer. Recent bill mark up discussions call for a permanent 
subcommittee (Weather Modification) within the Office of Science and 
Technology, who's chair would report directly to the President's 
Science Advisor.

    Question 2. What is the legal and scientific basis for creating 
such a powerful entity?
    Answer. There are multiple reasons to take everyday basic and 
applied science knowledge, combine it with latest technologies and 
apply them creating not only improved science and technology, but also 
tools that better serve and support the people. There is no funding to 
accomplish said, and time is running out. This subcommittee is 
necessary to study and verify the effectiveness and reliability of the 
science of weather modification.

    Question 3. The establishment of this board appears to place 
weather modification research above all other types of atmospheric 
research as a priority for funding within the Federal system. Why?
    Answer. No, the establishment of this board does not place weather 
modification research above all other types of research, Research 
related to weather modification more visibly serves societal needs 
(such as providing more water for reservoirs, energy generation or more 
sunshine for mental wellbeing, energy storage, reducing the destructive 
forces associated with hurricanes, or drought mitigation), and also 
provides data for the research already underway.

    Question 4. Would this board have subpoena powers and the power to 
issue ``rules,'' as is suggested by the bill?
    Answer. No, the Board will only report to the Subcommittee which 
will be comprised of Federal agencies.

    Question 5. Is the purpose of the Board to essentially create an 
independent agency dedicated to the promotion of weather modification 
research and distribution of grants? Please explain.
    Answer. No, the Board will report suggestions and provide answers 
to technical questions issued by the subcommittee.
                                 ______
                                 
 Response to Written Questions Submitted by Hon. E. Benjamin Nelson to
                         Dr. Thomas P. DeFelice

    Question 1. Has anyone considered the legal issues involved in 
weather modification? There is only a certain amount of moisture in the 
atmosphere; if artificial measures are used to make it rain in a 
particular location to relieve drought, for example, that water is 
diverted from another location where it would have ultimately fallen.
    Answer. Yes there is a certain amount of moisture in the atmosphere 
and most of it naturally stays there in some form or another. Very 
little atmospheric moisture falls out as precip (rain) on a global 
average basis. The precipitation efficiency of a thunderstorm is only 
about 20 percent, meaning 80 percent of the moisture associated with it 
remains in the atmosphere. I can provide the reference.
    Cloud seeding does not divert rain from falling in one place in 
favor of another (or in other words, cloud seeding does not rob Peter 
of rain to `water' Paul, it provides a little more rain to Peter and 
more rain to Paul than he would have received naturally). Clouds have 
been observed to contain plenty of moisture, even during the early 
months of a drought-period. Clouds just don't always possess a natural 
precipitation initiation mechanism (virga--precipitation that doesn't 
reach the ground--is not an example of a viable precipitation process, 
but may occur). The absence of a viable precipitation process also 
happens frequently in the areas surrounding deserts (drought regions).
    Cloud seeding applied to such clouds, under the right atmospheric 
conditions, provides the trigger to initiate a viable precipitation 
process. So cloud seeding extends the area of precipitation beyond what 
nature is able to provide. This is analogous to receiving a flu shot to 
make our immune system more viable during flu season. It is mostly not 
true that getting a flu shot gives us the flu. Not getting the flu shot 
generally means getting the flu.

    This raises similar issues as water rights controversies, where 
rivers have been diverted to accommodate certain interests at the 
expense of others.
    Question 2. Has the scientific community considered the legal 
implications of weather modification?
    Answer. The legal implications of weather modification are well 
documented (e.g., Ray Jay Davis, lawyer (deceased); Academic Press book 
on Weather Modification by Arnett Dennis 1981; American Society Civil 
Engineers (ASCE), Manual of Professional Practice for precipitation 
enhancement, 2nd Edition, and the ASCE standard practice documents on 
hail suppression, precipitation augmentation, and supercooled fog 
dispersal seeding operations).
    The scientists who regularly attend weather modification 
association meetings are familiar with these implications, and efforts 
have been underway to reach others. The Weather Modification 
Association Public Information Committee Chair will be happy to provide 
such documents to the Senator.

    Question 3. Shouldn't Congress be concerned that any government 
supported Weather Modification Board might support research and 
development of weather modifications without considering the legal 
implications?
    Answer. Legal implications mostly apply to operations, and 
operational seeding will not be conducted by the Federal Government 
under Senator Hutchison's bill. The board is comprised of people who 
have direct experience with weather modification activities.

    Question 4. Have you addressed the basic question of who owns the 
weather?
    Answer. This is currently left to the States. Under this bill any 
activity to modify the weather would have to address legal and 
environmental issues before it commenced since all would have a stake 
in the deliverable.
Funding
    I am concerned that there are a number of areas within weather 
research that are inadequately funded. For example, drought is of 
particular concern to my state right now. The National Drought 
Mitigation Center (NDMC) in Nebraska has only been in existence since 
1995. Previously, no national initiative or program existed to monitor 
drought trends. The work at the NDMC in monitoring drought, not only in 
Nebraska, but nationwide, will help us mitigate and respond to its 
effects in a much more effective manner. This is only one of numerous 
programs addressing weather monitoring, mitigation, and response that 
is years behind where it could be.
    Question 1. Should funding of new research on weather modification 
be a greater priority than research in the weather we already have now?
    Answer. No, but funding weather modification research can lead to 
additional technologies that more visibly serve societal needs, such as 
providing more water for reservoirs, energy generation or more sunshine 
for mental wellbeing, energy storage, reducing the destructive forces 
associated with hurricanes, or drought mitigation.
    If science and technology expenditures can be explicitly directed 
toward resolving a societal issue, it will make it easier to obtain 
public support, as society will see and appreciate that their taxes are 
being used to help resolve issues they face.

    Question 2. Shouldn't we ensure that existing research is 
adequately funded in order to protect commercial and governmental 
interests before making a commitment to support private research?
    Answer. Private research support for weather modification does not 
exist. Thus research related to weather modification requires some 
research to understand what is to be modified. So, funding technology 
development and their application also funds the existing research. The 
direct benefits of funding weather modification research could be 
realized in the Departments of Commerce, Interior, and Homeland 
Security (tracking and removal of bioterrism agents).
                                 ______
                                 
     Response to Written Questions Submitted by Hon. Bill Nelson to
                         Dr. Thomas P. DeFelice

Funding
    The Hurricane Research Division of NOAA's Office of Atmospheric 
Research has been inadequately funded for many years. As a result, 
research staff vacancies have gone unfilled, years of data have gone 
unanalyzed, and the science of hurricane prediction--especially with 
regard to intensity--is years behind where it could be. Question 1. 
Should funding of new research on weather modification be a greater 
priority than research in the weather we already have now?
    Answer. No, but funding weather modification research can lead to 
additional technologies that more visibly serve societal needs, such as 
providing more water for reservoirs, energy generation or more sunshine 
for mental wellbeing, energy storage, reducing the destructive forces 
associated with hurricanes, or drought mitigation.
    It was envisioned that the NOAA Hurricane Research Division (HRD) 
could play a significant role in weather modification research, since 
HRD models represent the best available for simulating realistic 
hurricanes. The unanalyzed data from previous hurricane research are 
useful for conducting crude verification of select hurricane model 
outputs.

    Question 2. Shouldn't we ensure that government hurricane research 
is adequately funded in order to protect lives before we make a 
commitment to support private research in weather research that has 
primarily only commercial applications?
    Answer. Yes, government hurricane research must be adequately 
funded, along with all weather system research. There is no known 
funding authorization for private research.
                                 ______
                                 
   Response to Written Questions Submitted to Michael Garstang, Ph.D.
Priorities and Funding of Atmospheric Research

    Questions from Hon. E. Benjamin Nelson:
    1. Should funding of new research on weather modification be a 
greater priority than research in the weather we already have now?
    2. Shouldn't we ensure that existing research is adequately funded 
in order to protect commercial and governmental interests before making 
a commitment to support private research?
    Questions from Hon. Bill Nelson:
    1. Should funding of new research on weather modification be a 
greater priority than research in the weather we already have now?
    2. Shouldn't we ensure that government hurricane research is 
adequately funded in order to protect lives before we make a commitment 
to support private research in weather research that has primarily only 
commercial applications?
    Questions from Hon. Daniel K. Inouye:
    1. What is this Board's legal and line of authority relationship to 
the Secretary of Commerce and the Administrator of NOAA?
    2. What is the legal and scientific basis for creating such a 
powerful entity?
    3. The establishment of this board appears to place weather 
modification research above all other types of atmospheric research as 
a priority for funding within the Federal system. Why?
    4. Would this Board have subpoena powers and the power to issue 
``rules,'' as is suggested by the bill?
    5. Is the purpose of the Board to essentially create an independent 
agency dedicated to the promotion of weather modification research and 
distribution of grants? Please explain.

    Answers to questions 3 and 5 (questions 1, 2, and 4 were beyond the 
Scope of the NRC Report).
    The NRC report documents the decline in funding for research in 
weather modification over the past 3 decades. Federal funding of 
weather modification research declined by the 1990s to less than $0.5M/
year.
        The NRC report points out the paradox between
    1. funding (largely by States) of unverified weather modification 
methods to address critical needs for water and reduction of damage 
(hail) but failure to fund the research needed to understand and 
improve these methodologies.
    2. substantial application of research funds directed at 
understanding and defining the implications of inadvertent weather 
modification (global warming) but failure to employ resources that 
would address advertent weather modification despite the fact that many 
of the basic scientific principles underly both unintentional and 
intentional weather modification.
    The NRC report emphasizes the fact that over the past 30 years 
enormous strides have been made in technology enabling processes 
critical to all weather to be observed, recorded, assimulated and 
modelled. Explicit attack upon critical physical processes such as the 
formation of a raindrop or a hail stone is now possible. Such a 
directed and sustained effort to remove obstacles to progress would pay 
dividends not only in weather modification but in many areas of the 
weather.
    For example, one of the greatest difficulties facing a weather 
forecaster is the prediction of the intensity and amount of the 
expected rain and hence flooding and other damage. Understanding the 
microphysics leading to rain can be significantly enhanced by carrying 
out controlled weather modification experiments. This understanding of 
precipitation would contribute directly to furthering our ability to 
predict the intensifying or weakening of a hurricane.
    The NRC report recommends a very directed research effort which 
would address a series of obstacles in understanding critical 
atmospheric processes. Such an effort would benefit a broad spectrum of 
applications of weather science.
    The NRC report explicitly advises against the application of 
Federal research resources to rain enhancement or hail reduction 
experiments until the critical questions blocking progress have been 
addressed.
    Finally, the NRC report points to the need and responsibility to 
address questions of water needs, severe storm damage ranging from hail 
and lightning to wind and water damage. The capability now exists to 
determine whether and to what extent humans are capable of exercising 
control over the weather. Unless a concerted and sustained effort is 
mounted by all of those responsible such questions will remain 
unanswered.

Legal Implications of Weather Modification
    Questions from Hon. E. Benjamin Nelson:
    1. Has the scientific community considered the legal implications 
of weather modification?
    2. Shouldn't Congress be concerned that any government supported 
Weather Modification Board might support research and development of 
weather modifications without considering the legal implications?
    3. Have you addressed the basic question of who owns the weather?
    Answer:
    The NRC report recognized the importance of weather modification 
research to society including legal implications. The NRC Committee's 
terms of reference were confined to addressing the current and future 
state of weather modification research.
    The NRC report does, however, point out that efforts in rainfall 
enhancement are directed at the redistribution and efficient use of 
existing water vapor supplies in the atmosphere. Intervention could 
produce rain where needed without ``robbing Peter to pay Paul''. 
Research and operations which have shed light on this question suggest 
instead that ``extra area'' effects extend rather than limit the 
effects of rainfall enhancement.

                                  <all>

</pre></body></html>
